<html>
<title> - THE CHALLENGES AND IMPACTS OF FEDERAL REGULATIONS AND WILDFIRE MANAGEMENT ON OUTDOOR RECREATION, HUNTING AND FISHING OPPORTUNITIES, AND TOURISM ON PUBLIC LANDS ON THE KENAI PENINSULA</title>
<body><pre>[Senate Hearing 114-422]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-422

    THE CHALLENGES AND IMPACTS OF FEDERAL REGULATIONS AND WILDFIRE 
 MANAGEMENT ON OUTDOOR RECREATION, HUNTING AND FISHING OPPORTUNITIES, 
           AND TOURISM ON PUBLIC LANDS ON THE KENAI PENINSULA

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 31, 2016

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov



                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-989                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                      COLIN HAYES, Staff Director
                PATRICK J. McCORMICK III, Chief Counsel
                MICHELLE LANE, Professional Staff Member
          CHUCK KLEESCHULTE, Senior Professional Staff Member
           ANGELA BECKER-DIPPMANN, Democratic Staff Director
                SAM E. FOWLER, Democratic Chief Counsel
                DAVID BROOKS, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1

                               WITNESSES

Maisch, John ``Chris,'' State Forester and Director, Alaska 
  Department of Natural Resources, Division of Forestry..........     5
Navarre, Hon. Mike, Mayor, Kenai Peninsula Borough, Soldotna, 
  Alaska.........................................................    15
Clock, Cindy, Executive Director, Seward Chamber of Commerce 
  (Alaska).......................................................    32
Gease, Ricky, Executive Director, Kenai River Sportsfishing 
  Association....................................................    36
Spraker, Ted, Safari Club International, Alaska..................    46

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Clock, Cindy:
    Opening Statement............................................    32
    Written Testimony............................................    34
Gease, Ricky:
    Opening Statement............................................    36
    Written Testimony............................................    40
Harpring, Jim and Ginny:
    Statement for the Record.....................................    77
Maisch, John ``Chris'':
    Opening Statement............................................     5
    Written Testimony............................................     9
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Navarre, Hon. Mike:
    Opening Statement............................................    15
    Written Testimony............................................    18
Spraker, Ted:
    Opening Statement............................................    46
    Written Testimony............................................    51

 
    THE CHALLENGES AND IMPACTS OF FEDERAL REGULATIONS AND WILDFIRE 
 MANAGEMENT ON OUTDOOR RECREATION, HUNTING AND FISHING OPPORTUNITIES, 
           AND TOURISM ON PUBLIC LANDS ON THE KENAI PENINSULA

                              ----------                              


                         Tuesday, May 31, 2016

                                        U.S. Senate
                  Committee on Energy and Natural Resources
                                                          Kenai, AK
    The Committee met, pursuant to notice, at 10:00 a.m. AKDT 
at the Challenger Learning Center, 9711 Kenai Spur Highway, 
Kenai, Alaska, Hon. Lisa Murkowski, Chairman of the Committee, 
presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning.
    We will call to order this field hearing of the Senate 
Energy and Natural Resources Committee. I would like to thank 
you all for coming this beautiful morning, particularly the day 
after a long, Memorial Day weekend.
    We thank all those who have served our country and hope 
that the weekend was one that was filled with meaningful 
tribute.
    We are here in Kenai today to review the management of our 
national forests and our other public lands and review what we 
can do, together and responsibly, to make them healthy and 
productive for the people who rely on them for their 
livelihoods, whether it is tourism, whether it is guiding, 
whether it is their access to recreation, to fishing, to 
hunting.
    We have some serious work in front of us. I think we 
recognize that over the past 20 plus years or thereabouts the 
management of our forests, of our public lands, or perhaps the 
lack of management, translates to a very real threat to the 
health and safety of communities, not only in our state, but 
across our nation.
    According to the Forest Service, up to 82 million acres of 
forest lands need some kind of restoration treatment because 
they are at high risk for severe wildland fires. Of those, 
twelve and a half million acres require some level of 
mechanical thinning to deal with these overly dense stands.
    The Forest Service has also designated 45 million acres as 
insect and disease epidemic areas that are in need of 
treatment. Here in Alaska and certainly here on the peninsula 
we know about the spruce bark beetle and the infestation that 
decimated some six million acres, including 1.3 million acres 
and more than 30 million spruce trees on the peninsula.
    If it is not enough to kill the trees, what then happens is 
that those dead trees become fuel for the devastating wildfires 
that we see. Everyone who fought and endured the 2014 Funny 
River Fire which consumed 156,000 acres knows that far too 
well.
    I have had an opportunity to go out and to see the 
devastation that was brought about by not only the Funny River 
Fire but the other fires that we have had around here, like the 
Card Street Five near Sterling. We have seen the impacts, and 
in many ways we are still dealing with the aftermath of that 
blaze. The hot spots or the holdovers, the carryover fires from 
not only last year's Card Street but Funny River in 2014, the 
wildland firefighters were called out to address that just in 
this past week.
    We have with us this morning Chris Maisch, who is the State 
Forester and the Director for the Alaska Department of Natural 
Resources (DNR). We will hear a little bit from him this 
morning about where we are with fire threat and the fire 
season. But I think it is a reminder to us that when we do not 
manage our forests, when we have, again, levels of infestation, 
when we have fuel that is essentially sitting on the forest 
floor, it does pose a threat.
    We recognize the importance of installing fuel and fire 
breaks to try to keep the fires smaller in order to reduce that 
threat. It is not only important to our protection of life and 
property for those who live here but something that we keep in 
mind as we worry about the safety of those who are fighting 
these fires.
    Yet as we recognize what is going on with greater incidents 
of more devastating fires and the lack of management, what we 
are seeing is less and less harvesting from our forests. The 
annual timber cut in the State of Alaska has dropped by more 
than 80 percent.
    When you have those timber harvesting jobs leave, it is not 
just the jobs that are lost, it is the impact on the local 
schools. It is the impact on the local budget shortfalls. 
Clearly there is a ripple effect when you think about our 
failure to properly manage forests.
    Basically, under our Federal Government's current 
practices, we are losing our forests to insects, disease and 
wildfires instead of responsibly managing and harvesting them. 
It is putting local communities at both physical risk and 
economic disadvantage.
    I was down in Ketchikan, Sunday and Monday and had an 
opportunity to meet with some of those in the struggling timber 
industry. They reminded me that our forests work if our 
foresters are able to work.
    Yet it seems that you have a situation, at least within the 
Forest Service, and it was what the former Chief of the Forest 
Service, Dale Bosworth, said. He describes it as ``analysis 
paralysis.'' Basically that progress today has been redefined 
by completion of a process rather than implementation of almost 
any project on the ground, and I think that we see that.
    In the Tongass we have gone from more than 6,000 direct and 
indirect jobs which represented 79 percent of all manufacturing 
jobs in the state back in the early 90's, to just 550 wood and 
forestry jobs today. This represents less than one percent of 
Alaska's current economy.
    Here in the Chugach, historically speaking, we have never 
been a big timber producing area, but at this point in time, we 
see almost no timber harvested for saw logs and only a handful 
of workers remain to process mostly utility logs for biomass or 
for firewood. That has driven the Federal funding from what 
used to be called stumpage fees down to practically nothing.
    Now we recognize that when we are talking about Forest 
Service and Forest Service lands, it is multiple use. It is not 
just managing for timber harvest. So you would say well, other 
things are going well on our Forest Service lands. But that is 
not what I am hearing.
    We have many, many complaints from tourism, charter 
operators and outfitters and guides that the Forest Service is 
not offering enough new concession opportunities in most of the 
Chugach. Both the National Park Service and Fish and Wildlife 
Service, of course, have proposed or implemented new 
regulations that seize authority from wildlife management which 
was really one of the drivers of us for statehood. But they are 
basically moving in a direction that takes that authority for 
our wildlife management from the state and moves it under the 
auspices of Federal management. We need new, revised and better 
policies to fix all these issues, and we are working on it.
    I would like to talk about a couple things that we have 
been doing back in Washington to address these issues.
    In this year's Interior budget, we have $1.6 billion, which 
is $600 million more than last year, to make sure that we have 
the resources needed to fight fires during what we anticipate 
could be another really terrible fire year. What has been 
happening as we have seen the increase of these very, very 
costly fires, not only here in the State of Alaska but around 
the country, if there is not enough money budgeted on an annual 
basis for the Department of the Interior, what happens is the 
fire accounts within the Forest Service will borrow from other 
accounts to pay for fire suppression.
    What that means is let's say, you have a big fire. We need 
to pay to put out the fire. As we are spending money to put out 
fires, we are taking it from those accounts that would make 
sure that we are working more actively on thinning, to do 
prescriptive burns, to basically manage the fires out there.
    Last week I introduced legislation, a draft bill with 
Senator Cantwell, who is the Ranking Member on the Energy 
Committee, along with Senator Wyden from Oregon, as well as 
both of the Idaho Senators. We are looking at trying to deal 
with a longer-term solution. We addressed the wildfire funding 
crisis and are working to improve Federal forest management.
    What we attempt to do is fully fund fire prevention and 
firefighting efforts. At the same time, we would stop this 
borrowing from one account to another, because if you take the 
money from Forest Service for what they need to do to provide 
for the concessions or again, for the recreation accounts, the 
timber accounts, the system just does not work. We recognize 
that it is a system that is not sustainable.
    I have also worked to beef up recreation funding for the 
Alaska region through appropriations. We added $2.5 million 
more than we received three years ago to address the budget 
issues that the Forest Service has blamed for causing the 
reduction in the new solicitation periods for tourism, 
outfitter and guide concession contracts.
    Just over a month ago we got the Senate's approval for 
comprehensive sportsmen's legislation that I have been leading 
for some time now. This has been included in the energy bill. 
Probably the most pertinent provision of that Sportsmen's bill, 
relative to this discussion today, is a provision that 
guarantees that Forest Service, Bureau of Land Management 
lands, remain open to hunting unless otherwise closed, open to 
hunting and fishing and sport shooting effectively ensuring 
that your public lands are actually public. This is going to be 
an important aspect of what it is that we do moving forward, 
making sure that we have access to the lands that we have in 
our public holdings.
    We are going to hear some testimony here about the 
regulations that have been issued by Park Service and Fish and 
Wildlife Service, again, the Federal regulators coming in and 
attempting to determine what will happen with management of our 
wildlife on these lands. We have been working as a delegation 
to do everything that we can to slow down and prevent these 
proposed rules from taking or staying into effect.
    We have a lot to talk about this morning when we discuss 
how to better aid health and management and benefit the economy 
here on the Kenai Peninsula. We have a good panel of witnesses 
with us, so I will end my opening comments and introduce the 
panel.
    To those of you who have joined us, thank you for your 
interest.
    Know that the way Senate field hearings or Senate hearings 
in general work, you have invited testimony. These five 
individuals have been invited to be part of the Committee 
record. They have submitted written testimony that is 
incorporated now as part of the record, we will have their 
verbal comments, have an opportunity for questions and answers, 
and back and forth.
    That does not mean that you or those that might be 
interested cannot weigh in and submit your comments, if you 
want to submit them as part of the Committee record. So keep 
that in mind if you have any interest on that.
    With that, I am going to remind those who have been invited 
to testify, we have asked you to keep your comments to about 
five minutes. But this is our hearing this morning, and I am 
not going to run a clock or a timer on you. I want to get the 
conversation flowing. Your full written statements will be 
incorporated as part of the Committee record, but again, we are 
looking forward to hearing your contribution.
    The first panelist to speak to us this morning is Chris 
Maisch. He, as I mentioned, is the State Forester and the 
Director for the Alaska Department of Natural Resources. We 
were a little bit concerned that Chris might not be able to 
join us this morning because this is the time of year that 
fires start hopping across the state. But when I got on the 
airplane coming out of Anchorage this morning and saw him 
there, I took it as two good signs. First, he was going to be 
able to participate, and second, that meant we were not in the 
midst of some tough fires right now.
    Next to Chris is a friend of many of you, of course, the 
Honorable Mike Navarre, your Mayor for the Kenai Peninsula 
Borough. I thank you for being in your Borough and here this 
morning. Thank you for the good weather.
    We have Cindy Clock, who has come over from Seward. She is 
the Executive Director for the Seward Chamber of Commerce. 
Hopefully we will hear something about the impact on tourism 
over on the other side there.
    Ricky Gease is a friend and President of the Kenai River 
Sportfishing Association. We will have an opportunity to talk 
about the recreational and the commercial end of what we see 
with our fishing in the region and how that might be impacted 
by fire or for regulation.
    Rounding out the panel is Mr. Ted Spraker, who is with us 
from Safari Club International. He wears multiple other hats as 
we know, but I appreciate you joining us this morning and 
speaking from the perspective of perhaps some of the hunting 
regulations that we are seeing coming our way.
    With that, Chris, if you want to start off. We will go down 
the line and when everyone has concluded, that is when we can 
have a little bit more of a dialog with questions and answers 
going back and forth.
    Welcome.

    STATEMENT OF JOHN ``CHRIS'' MAISCH, STATE FORESTER AND 
        DIRECTOR, ALASKA DEPARTMENT OF NATURAL RESOURCES

    Mr. Maisch. Okay, great.
    Good morning, Madam Chair and members of the public. My 
name is Chris Maisch. I'm the State Forester and Director of 
the Alaska Department of Natural Resources Division of Forestry 
and Past President of the National Association of State 
Foresters.
    I want to apologize. I'm still fighting a cold that was 
precipitated by allergies for the record amount of birch pollen 
that we produced in Interior Alaska. [Laughter.] And I 
understand down here too. I never used to be allergic to trees, 
so I'm not sure what's going on here being a forester and 
developing this. But we set a world record for the amount of 
pollen in Fairbanks on one particular day about three weeks ago 
in terms of the highest quantity ever measured on a 24-hour 
period. So if I pause to cough, I apologize.
    I do appreciate the opportunity to speak with you today and 
submit written testimony as the Committee entertains a review 
of the complex issues surrounding wildland fire management and 
the impacts to outdoor recreation opportunities during our 
active fire season.
    I also plan to offer some comments on the draft, Wildfire 
Budgeting, Response and Forest Management Act of 2016, that was 
recently made available for comment.
    The mission of the Division of Forestry is to proudly serve 
Alaskans through forest management and wildland fire 
protection. The Division is the lead agency for wildland fire 
management services on 150 million acres of land with the 
primary goal to protect life and property.
    The National Association of State Foresters represents the 
Directors of state forestry agencies in all 50 states, eight 
territories and the District of Columbia. State foresters 
deliver technical and financial assistance along with 
protection of forest health, water and wildfire for more than 
two-thirds of the nation's forests.
    As you know the 2015 fire season was a difficult one, both 
in the nation and in Alaska. Over ten million acres burned 
nationally with about 5.1 million acres burning in Alaska, our 
second worst season on record.
    The Card Street Fire began on the Kenai Peninsula in the 
Kenai National Wildlife Refuge near the community of Sterling 
on June 15th on a day that had red flag warnings posted. The 
fire impacted many of the specific items this hearing was 
designed to explore, including tourism on public lands, outdoor 
recreation activities, especially fishing opportunities during 
June and long-term impacts on wildlife habitat, hunting, 
trapping and other subsistence activities.
    At Skilak Lake, boat launch ramps and campgrounds were 
closed at the height of the tourist season while numerous local 
residents were prevented from enjoying the various recreational 
and sport fishing opportunities that all Alaskans enjoy during 
our brief summer season.
    The Kenai River is a world renowned sport fishery and 
visitors and residents travel to this region to enjoy the 
various opportunities that can be found--provided there is not 
a large wildland fire wreaking havoc with their plans.
    How can we collectively do a better job of getting in front 
of this persistent wildland fire issue to minimize the negative 
impacts and risk to public safety while at the same time 
recognizing the role wildland fire plays in this ecosystem?
    I'd like to outline the multi-step process utilized in the 
Kenai to address these issues, and it all begins with advanced 
work and planning.
    The Alaska Interagency Wildland Fire Management Plan is the 
state level, foundational document that establishes initial 
attack response at four different levels. Those are critical, 
full, modified and limited and provide high level, strategic 
policy direction to fire managers across all land ownerships.
    It recognizes a need for close, pre-fire incident 
cooperation and communication with land owners, communities, 
land management agencies and the fire suppression organizations 
to be well prepared for wildland fires. And in the written 
testimony there's a hot link to the interagency plan.
    After the large spruce beetle outbreaks across the Kenai in 
the late 80's and 90's the concept of all lands came into 
practice to address the issues associated with the 
unprecedented acreage of dead forests and the changing wildland 
fire risk including a new fuel type on the Kenai which are the 
grass type, as we call it.
    This concept preceded the now well-accepted goals 
enumerated in the cohesive strategy which is a nationwide 
strategy which has three primary objectives. Restore and 
maintain resilient landscapes, develop fire adapted 
communities, and provide efficient and effective response to 
wildfires.
    Communities across the Kenai Peninsula undertook efforts to 
complete community wildfire protection plans and to implement 
specific recommendations for risk reduction in their 
communities. Adoption of fire wise principles decrease risk to 
individual homes and businesses. Increased training with 
cooperators including mutual aid agreements. Establishment of 
agency crews, and other measures to increase capacity. And 
finally, aggressive fuels mitigation projects at the landscape 
level of which the Funny River Fire project is a classic 
example of a project that really proved its worth in the 2014 
Funny River Fire.
    There is another hot link in the prepared written testimony 
that goes to a very detailed scientific analysis of that effort 
and how it can be duplicated in other locations both in Alaska 
and across the country.
    These actions, taken in concert with each other, build a 
resilient and adaptive approach to reduce risk and deal with 
large wildfire events in and near communities.
    I have a few specific recommendations for the Committee's 
consideration to improve or augment the activities I've 
mentioned already.
    First off, a simplified or streamlined process to allow 
Federal agencies to act promptly to change environmental 
conditions and funding opportunities to complete fuel 
mitigation projects on Federal lands.
    Due to the overly complicated and time consuming process of 
completing NEPA documents for treating Federal land, the Funny 
River project was completed on Borough and Native Corporation 
lands just outside the wildlife refuge boundaries.
    I would also recommend that providing funding for 
communities at risk to complete projects that will reduce risk 
and better prepare communities to survive and respond to 
wildland fires. Prevention. Prevention. Prevention. The more we 
collectively do to prepare for the incident, the better we will 
respond, including less overall cost and it will improve 
recovery timelines.
    Next I'd like to comment briefly on the discussion draft 
that was recently introduced by a bipartisan group of 
congressional members. I'll offer a few points for 
consideration beginning with fire transfers which represent 
just one part of the broader wildland fire funding problem that 
the Senator alluded to in her opening comments.
    The discussion draft would allow access through a budget 
cap adjustment for additional funding to fight wildfires once 
all appropriated suppression funding, which would be 100 
percent of the ten-year average, is exhausted. While we greatly 
appreciate the effort put into the current draft to recognize 
the need to address fire borrowing, the approach in the draft 
does not entirely solve the problem.
    As the ten-year average continues to grow with extreme 
wildland fire seasons, the portion of the Forest Service budget 
dedicated to fire grows. This results in less funding for other 
agency programs critical to supporting Federal, State, and 
private forests and further decreases the ability to improve 
forest health conditions that reduce the risk of catastrophic 
fire.
    There's actually an example in the written testimony about 
when fire borrowing impacts Alaskan projects. I'm not going to 
go into detail on those because I think we're running a little 
long here and I'll wrap up my comments, but I wanted to make 
one or two more points about the discussion draft.
    One of the key points is that our previous comments on this 
topic have been less focused on funding mechanisms to which 
disaster funds are made available to the Forest Service and DOI 
and instead stress the critical needs to access disaster 
funding to pay for catastrophic wildfires placing these fires 
on par with other natural disasters. And this can be done via a 
budget cap adjustment or access to the FEMA Disaster Relief 
Fund.
    An additional section of the proposed draft legislation 
addresses the need for agencies to work with states on an equal 
footing to certify aviation assets and pilots ahead of the fire 
season. This is a positive step in streamlining current 
operations and ensuring there are no delays during the fire 
season for needed resources.
    There are a number of other specific provisions in the 
draft bill that would help address the issues raised in today's 
testimony and at previous hearings, and we individually and 
jointly look forward to commenting in detail on the proposals 
put forward.
    Once again, I appreciate the opportunity to appear before 
the Committee on behalf of the Alaska Division of Forestry and 
the National Association of State Foresters. I would like to 
thank the Committee for its continued leadership and support of 
efforts to both respond to wildland fire and to take necessary 
actions to address the underlying causes through increased 
active management of all forest lands.
    That concludes my comments. Thank you.
    [The prepared statement of Mr. Maisch follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
       
    The Chairman. Thank you, Chris. I appreciate it very much.
    Mayor, welcome.

STATEMENT OF HON. MIKE NAVARRE, MAYOR, KENAI PENINSULA BOROUGH, 
                        SOLDOTNA, ALASKA

    Mr. Navarre. Thank you, Senator. I appreciate you bringing 
the Committee to the Kenai Peninsula to talk about some of 
these issues and for your leadership on the Committee and as 
Chair of the Committee on issues that are important to Alaska.
    You know, I want to deviate a little bit from my written 
testimony that I already submitted and just talk about how we 
got here and some of the instances.
    The initial funding for the spruce bark beetle issue came 
as a state grant, and it came back when Don Gilman was mayor in 
1991 and 1992, I believe. I was Chairman of the Finance 
Committee and he said, hey, we've got a big problem. He was 
scared to death that Cooper Landing was going to go up in smoke 
at the time because of the bark beetle infestation, so we 
provided some funding. Did some fire breaks in the Cooper 
Landing area, and Don Gilman led in that effort.
    When I became Mayor of the Kenai Peninsula Borough the 
first time in 1996 we were on our way to Seldovia for an 
assembly meeting, and I was absolutely shocked at how many dead 
trees there were flying over the Peninsula. I just had no idea. 
And so, I contacted Senator Stevens and without talking to the 
Forest Service or the state forestry or fish and game or 
anybody, I called Senator Stevens and said hey, we've got a big 
problem and need some money. He put a half million dollars in 
the budget for us to put together a task force.
    Then I got a call from a friend of mine who was working in 
DC. She said the environmentalists down here in Washington, DC 
are worried because they're afraid that this crazy Mayor of the 
Kenai Peninsula Borough just wants to put together a plan to 
chop up the entire Kenai Peninsula. And I assured them that you 
wouldn't do that. What's going on?
    So I recognize the need to talk with folks about what was 
going on. I met with the state forestry and met with the 
Federal foresters and then put together a task force that was a 
very collaborative effort to, I guess, work with everybody, 
environmentalists, Native Corporations, State, Federal and 
local agencies, municipal officials, I guess, advocates for 
fishing and hunting to try to make sure that we could identify 
the problem and find a way to work through it.
    We were successful in initially finding, sort of, the low 
hanging fruit. Instead of focusing on the entire problem we 
focused on the things that we could agree upon, a wildland 
urban interface, making sure that there were fire breaks that 
we could widen either rights of ways or along roads, power 
lines, things like that that were already natural fire breaks 
that we could use and enhance in order to protect some of the 
more urban areas of the Kenai Peninsula.
    We did put together a good plan, submitted it to the 
Senator Stevens, and over the course of the next almost 20 
years we received in excess of about $20 million to deal with 
the problem. And with those funds we were able to both do 
public education, implement a fire wise program, look at the 
wildland urban interface and work together with a whole bunch 
of diverse interests to address a very critical problem.
    I guess the take away from that is the resources that we 
were able to bring to bear. And that really, I think, is what 
it boils down to at the end of the day whether you're fighting 
fires or whether you're planning in order to try to mitigate 
the damages when there is a fire. It boils down to resources.
    And we've been very fortunate over the years to get 
significant funding both from the State and Federal Governments 
to do some aerial photography so that we can integrate it into 
our GIS and do vegetation mapping to see how the landscape is 
changing. But those need to be renewed in a continual grant 
program so that we can identify where those changes are taking 
place.
    I brought my map here which shows why we should get Federal 
funding for this because the yellow is the Federal lands on the 
Kenai Peninsula. The Federal Government owns, by far, most of 
the lands on the Kenai Peninsula and in Alaska. So it's 
important to get resources.
    It strikes me as we've seen the various fires, the Card 
Street Fire, the Funny River Fire, other fires that have taken 
place is that the incident command system really, really works. 
Resources are brought to bear quickly. People work together in 
concert to identify the problems to focus on how we solve the 
immediate problem.
    What isn't always the case is that those resources are 
brought to bear when there is an incident, a fire incident, and 
go away when there is no immediate threat. And sometimes it 
hamstrings the efforts to try to find a way to plan for and 
mitigate fires.
    I want to talk a little bit too about what has been, I 
think, cooperation and more recently, at least since I've been 
Mayor for the last five years, between the Federal and State 
and local entities. And I think that really is in large measure 
part of the personalities, the folks who we have here. And I 
want to say that I've had a good relationship with the folks 
who manage the Federal lands here and the state lands here. 
We've gotten, as I said, some very good response through the 
bark beetle funding, the fire wise program, aerial photography 
grant funding.
    You know, we had an Elodea infestation that we managed to 
have a very cooperative effort between State, local and Federal 
entities in order to provide some ability to preserve our 
fishery's resource, and I think that is critically important.
    One of the things that it seems that we've sometimes run 
into is constraints that come down from what seems like the 
Federal managers in DC that is, sort of, a one size fits all 
for Federal lands across the United States. And in Alaska, we 
value our hunting and fishing, as you well know. And we also 
value our natural resources and our recreation and our access 
to recreation.
    And the Kenai Peninsula is the--is really a place where the 
entire state recreates. We get a tremendous amount of residents 
from in-state, who come to the Kenai Peninsula to recreate on 
State and Federal and local lands. And we also get visitors 
from out of state and around the world, who come here. It is a 
world renowned destination and with proper management we can 
make sure that we protect it.
    What I would like to finish with is, I think, that the 
spruce bark beetle collaborative effort was a good example of 
how working together and being able to talk together about what 
the issues are that the Federal managers may be faced with from 
whoever their bosses are in Washington, DC and making sure that 
we can put a local flavor on it so that we can have local 
expertise and local interest be able to weigh into it and have 
a dialog with the Federal managers about what can and can't be 
done or find innovative ways to either go around or to find 
ways that we can, sort of, get the local influence factored 
into the decisions and the management of our lands.
    Again, it boils down to resources. And the resources that 
are needed locally so that we can continue to integrate into 
our GIS system information and aerial photography on an ongoing 
basis that will lead us to adaptive management over time as we 
see changes here where, you know, in some cases we're seeing 
trees going to grasslands. And that needs to be addressed or it 
becomes a quick way for fires to spread and at the same time, 
it changes, sort of, what the habitat is for the wildlife 
resources that we consider so valuable.
    So again, Senator, thank you very much for bringing the 
Committee to the Kenai Peninsula and for your leadership, and 
that concludes my testimony.
    [The prepared statement of Mr. Navarre follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    The Chairman. Thank you, Mayor, I appreciate it.
    Cindy Clock, welcome.

STATEMENT OF CINDY CLOCK, EXECUTIVE DIRECTOR, SEWARD CHAMBER OF 
                            COMMERCE

    Ms. Clock. Yes and so we're going to take just a little 
break now from these really heavy duty, serious subjects and 
talk about tourism, specifically winter tourism. And thank you 
as well from Seward for being here and for inviting me.
    The Seward Chamber currently has about 315 members. Our 
small, seaside town has a population of just under 3,000. The 
Chamber partners with the City of Seward for economic 
development using strategic doing.
    Our current focus is on the Seward Marine Industrial Center 
and alternative energy. You may or may not have heard about the 
sea water heat pump at the Alaska Sea Life Center and that's 
really our poster child in Seward for alternative energy.
    Historically, Seward has struggled with a seasonal economy. 
We're very lucky to live in such a beautiful place and 
appreciate our thousands of summer visitors, but for years 
we've been searching for ways to encourage people to visit in 
the shoulder season, along with promoting and encouraging 
winter tourism in our community.
    Many of Alaska's smaller coastal communities are challenged 
to maintain a viable and consistent, year-round economy. Those 
without a strong year-round economic basis rely on the state to 
assist their residents in maintaining basic standards of 
living. Communities that can successfully maintain a year-round 
economy with stable year-round employment support populations 
that are generally more self-sufficient and rely less on state 
assistance.
    Because Silverton Mountain Guides, which could very well be 
one of the new concessionaires that you spoke of, based their 
heli-skiing operation out of Seward last year using BLM lands, 
we saw a real boost to our local economy during the winter 
months.
    Aaron Brill, owner and operator of Silverton Mountain 
Guides, and his client guests supported many businesses through 
purchases of food and beverage, lodging accommodations, leasing 
hanger and office space at the Seward Airport, not to mention 
purchasing aviation fuel.
    There's a huge opportunity for Silverton Mountain Guides 
and hopefully other heli-skiing operations like them to grow 
their business but to do so it is imperative they're able to 
utilize United States Forest Service terrain.
    Representing my Board of Directors and the Seward Chamber 
membership I would very much like to see them be awarded 
permits for United States Forest Service designated heli-skiing 
exploratory zones including East Moose Creek, Mount Ascension, 
East Ptarmigan, West Bench Peak, Mid Seattle Creek and East 
Seattle Creek.
    With the ability to fly inland at higher elevations and 
colder temperatures and where the sun shines more frequently, 
Silverton Mountain Guides could increase client capacity 
upwards to 24 clients per week. The current DNR heli-skiing 
terrain is located along the low coastal areas of Seward which 
doesn't work very well during low snow years and warmer 
temperatures like those we've been experiencing lately.
    Silverton Mountain Guides needs to be able to expand the 
terrain options for clients in order to have the ability to fly 
inland at higher elevations for optimal snow, and we know that 
means powder for these guys. Winter tourism is good for Seward.
    And finally, I would just like to address the permit 
application process. So anything that the United States Forest 
Service could do to actually open up and then streamline the 
process to accommodate new businesses to enhance economic 
development in small towns like Seward would be very much 
appreciated. As communities like ours are encouraged to stand 
on their own by the State of Alaska during these very 
challenging economic times, the business community seeks to 
thrive and we know our Federal partners can help.
    Thank you very much.
    [The prepared statement of Ms. Clock follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    The Chairman. Thank you, Cindy.
    Ricky Gease, welcome.

   STATEMENT OF RICKY GEASE, EXECUTIVE DIRECTOR, KENAI RIVER 
                    SPORTFISHING ASSOCIATION

    Mr. Gease. Thank you.
    Thank you, Chairman Murkowski and for the opportunity to 
testify today. It's really great to see you on the Kenai 
Peninsula.
    My name is Ricky Gease. I'm the Executive Director at Kenai 
River Sportfishing Association. We're a non-profit fishery 
conservation group here on the Peninsula. I also sit on the 
South Central RAC, the Regional Advisory Council, for the 
Federal Subsistence Board.
    Federal lands comprise about two-thirds of the Kenai 
Peninsula so agencies and the regulations do have a big impact 
here. The Kenai River is the largest sport, personally-used 
fisheries in Alaska and combined with commercial, sport, 
personal use and subsistence fisheries here at Cook Inlet, it's 
more than a $1 billion industry. You know, for outdoor 
recreation, hunting and fishing and tourism, it's big business 
here and it's a very important topic that we're covering today.
    I want to cover three topics and they all have to do with 
the one size fits all approach of, kind of, Federal 
philosophical approaches.
    And they have to do with wilderness. I'll talk about the 
Cooper Landing bypass, kind of this passive instead of active 
management. I'll give two examples with fire management and 
predator control. Then I'll wrap up with funding restrictions 
with the Endangered Species Act and how it impacts the Pacific 
Coastal Salmon Recovery Fund and our ability to access money 
for salmon research.
    So first off with wilderness. You know, as an ecologist I 
firmly support wilderness designation on Federal lands. I think 
it's important to have a mosaic of different land designations 
and wilderness is definitely important. But I don't think 
they're as valuable in having an inflexible regulation that 
ties the hands of our land managers so much so that it 
discourages wise choices.
    So let's talk about the Cooper Landing bypass. This issue 
has been around our community for more than 40 years. It's been 
controversial, yet there does seem to be light at the end of 
the tunnel. Unfortunately that light looks like an oncoming 
train. The two objectives of the bypass were to move highway 
traffic around Cooper Landing safely and to move highway 
traffic away from the Kenai River.
    So what's the oncoming train wreck? The preferred 
alternative by DOT is the most expensive route. It builds 
another bridge across the Kenai River. It fails to move highway 
traffic and more importantly, I think, the commercial truck 
traffic that everybody understands here if you're a resident, 
away from the Kenai River. It does not mitigate the high impact 
areas such as the bend between Gwin's and the Russian River 
Campground in Quebec, and it utterly disrupts Alaska Native, 
culturally sensitive lands.
    So after five years, you know, 40 years, why are we stuck 
with this loser of a proposition? Because DOT both at the 
Federal and State level wants no part of working through the 
process of the land exchange that involves a wilderness 
designation even though the Russian River Lands Act, passed by 
Congress, authorizes this land exchange.
    We have 80 acres of a rock mountainside in the Kenai 
National Wildlife Refuge that has a wilderness designation. And 
that's the start of the area that would be the top shelf or 
what I think is the best route. And that stands between us and 
a bypass that would bypass both Cooper Landing and the Kenai 
River.
    It would avoid culturally sensitive lands, and it would 
come in at a cost of $50 million less. So we're going to forgo 
being smart and wise and strategic just to avoid the worrisome 
and dull and inflexible regulations of wilderness, and that 
doesn't make much sense.
    I'll add in some about fire management. If we do go in with 
this preferred alternative and we have fire response coming 
over from the Moose Pass area and they get stuck in the 
bottleneck of Cooper Landing during July and we have a big fire 
down here, it's going to be a pretty poor example of good 
planning, when we have everybody from the personal use fishery 
trying to get to or from the Kenai Peninsula and we have all 
these emergency disaster trucks and everybody at the stage 
ready to go and they can't get here to fight the fire. And 
that's going to be real fun to watch.
    Second thing I'll talk about is passive verses active 
management, and I'll start off with fire management. I'll say 
if and when the Greater Kenai/Soldotna area burns to the ground 
in a catastrophic fire. I don't think it's a question of if. I 
think it's a question of when. I think more than a few people 
here are going to be thinking it didn't have to be that way. 
And I'll just state this. There's a funny TV commercial. A bank 
has an armed robbery. People are hitting the floor, panic 
erupts, and the distraught bank customers are asking the 
security officer to do something. And he replies, oh, I'm not a 
security guard. I'm only a security monitor. I'm only to advise 
you when a robbery is going to take place. And after a short 
pause the guy goes, a robbery is taking place. That's kind of 
what it feels like here. If a catastrophic fire sweeps through 
our community, we're going to be feeling like a robbery is 
taking place.
    Now fire is an integral part of the ecology of the Kenai 
Peninsula. We're willing to spend unlimited resources on fire 
suppression and control once a fire starts, but we're unwilling 
to implement proactive fire management plans before our fire 
begins. And I'm not letting this, you know, fault at the fire 
managers. We've heard enough examples that it's policy that's 
doing this.
    There's a no nonsense fire line south of the Funny River 
Road that saved our community from a catastrophic fire, and 
without that fire break fire would have spread through our 
communities like a freight train. I don't know if this building 
right here would still be standing today without the hundred 
yard by ten-mile-long fire break that got put in on private 
lands.
    So what's our current protection plan for the North and 
East of the communities of Sterling, Soldotna, Kenai and 
Nikiski? Well-controlled burns are now actively being the case 
on Federal lands. What large scale fire breaks are located on 
Federal lands? Not much.
    It seems as if the onus of fire protection is placed on 
non-Federal entities is disproportionate to that placed on 
Federal managers, and it's heading us for an eventual, large 
scale disaster. Again, I want to say it's not the people 
personnel on the Kenai Peninsula. But they have their hands 
tied, and we need to do something to unbind those hands.
    Second issue in terms of passive management I'll talk 
about, and this is more from the perspective of sitting on the 
South Central RAC and Federal subsistence, it's the concept of 
predator control.
    No issue in Alaska highlights the difference between 
passive and active management on Federal lands like predator 
control. The leave no trace wilderness philosophy has crept 
into the Federal perspective on predator management and now has 
become a thou shall not kill predators. Traditional wildlife 
philosophy sets ranges for both predators and prey species in 
game management. The population base goals are to ensure the 
sustainability of both predator and prey populations and to 
provide harvestable surpluses for hunting. Hunting provides 
important food for Alaska families. It's safe to say that no 
Federal agency in Alaska is a dynamic proponent of predator 
control. Examples abound. Wolves on Unimak Island. The Federal 
response to Alaska Natives of ``no, you didn't hunt that,'' 
when Alaska Natives talk about their traditions of predator 
controls for bears, wolves and sea otters.
    The most recent attempt by the National Park Service and 
U.S. Fish and Wildlife Service to impose hunting restrictions 
and bans through the Federal agency regulatory process instead 
of using Federal or State game board management.
    Hunting and trapping for all animals, whether predators or 
prey, has a historical place in wildlife management in Alaska 
and should be included on Federal lands now and into the 
future. These activities have long held an important place in 
the pantheon of outdoor recreation and tourism on the Kenai 
Peninsula.
    The last issue I want to talk about is funding 
restrictions. First off, Federal funding is important on the 
Kenai Peninsula for fisheries and fishery conservation and 
habitat. We have the cost share program. It's an amazing 
program. I think a third of the properties on the Kenai River 
participate in that, and that's a great relationship between 
U.S. Fish and Wildlife Service and the Alaska Department of 
Fish and Game.
    We have a fish habitat partnership that's been putting, you 
know, important, strategic plans in place. We've talked about 
the Elodea. The co-oper-ship between everybody, agencies and 
ridding that of the invasive species on the Kenai Peninsula.
    So let's wrap up with the Pacific Coastal Salmon Recovery 
Fund. Regulations now state that research can only be for 
salmon listed under the Endangered Species Act. This 
restriction was added just a few years ago, and it's taken 
about $10 to $15 million out of salmon research from Alaska.
    Since no salmon has an ESA listing it effectively blocks 
further salmon research in Alaska using Pacific Coastal Salmon 
Recovery Fund monies, and it's that is the largest source of 
Federal salmon research money available in the country.
    Salmon populations through the North Pacific rise and fall 
in cyclical boom and bust fashion following periodic changes in 
ocean productivity that we don't really understand the 
mechanisms. It makes no sense to research the salmon or it just 
makes sense to research salmon to all phases of the boom and 
bust cycles so that we can come to understand all the variables 
involved in the population dynamics through the years, the 
decades and the centuries.
    Early run king salmon fishing on the Kenai River is now 
closed for the fourth straight year. Gillnets as a subsistence 
gear for king salmon are prohibited once again on the Kuskokwim 
River and that's the largest subsistence king salmon fishery in 
the State of Alaska.
    Commercial and subsistence harvest of games on the Yukon 
are fading from memory. It's been so long there since people 
have done it.
    We have a statewide king salmon crisis and other species 
are also starting to show signs of ocean distress such as 
sockeye salmon. This is about the second year in a row that the 
third, three-year, ocean, sockeye salmon are showing little to 
no growth.
    We have halibut over the last decade. Halibut had the rate 
of growth as to decrease by one-half.
    We have sea birds. This is about the second year in a row 
that we've had great die offs of common birds across the Gulf 
of Alaska.
    Something is going on in the North Pacific, and yet access 
to research fronts through the Pacific Coastal Salmon Fund is 
denied. We're unable to find out the reasons for poor ocean 
productivity for salmon and these other species. The lack of an 
ESA designation does not mean that Alaska salmon, in 
particular, or king salmon, are not in need of help.
    The lost economic opportunity for recreational fishing, 
specifically for king salmon and halibut in Cook Inlet, are on 
the magnitude of tens of millions of dollars. You throw in the 
lost opportunity for subsistence, personal use and the impacts 
of salmon restrictions and halibut restrictions on commercial 
fisheries, here and statewide, and you have untold losses in 
the millions and millions of dollars.
    But these losses are not enough to override the regulatory 
requirement for and ESA listing to trigger funding for salmon 
research. That's just not a reflection of smart and responsive 
government.
    So the ESA listing is kind of like this wilderness and this 
clunky, bulky, regulation, a one size fits all approach, from 
DC imposed on Alaska, both the Federal and state managers in 
Alaska. And it just doesn't work very, you know, sharply.
    I want to thank you for the opportunity to speak to you 
today and to the Committee, and we have some written comments.
    Thank you.
    [The prepared statement of Mr. Gease follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    The Chairman. Thank you. Thank you, Ricky.
    Our last panelist this morning is Ted Spraker. Thank you 
for being here.

  STATEMENT OF TED SPRAKER, SAFARI CLUB INTERNATIONAL, ALASKA

    Mr. Spraker. Thank you, Senator Murkowski and members of 
the public, I appreciate being here. I'm really grateful for 
the opportunity to address some of our local issues, especially 
some of our local Federal issues that we have before us.
    For the record, again, my name is Ted Spraker. Unlike 
probably many in this audience, I'm not a lifelong Alaskan. I 
was born in another state. I was raised in Wyoming. I've lived 
in Alaska for 42 years and 38 of those years have been here on 
the Kenai Peninsula.
    When I first came to Alaska I was very fortunate to land a 
job and have a career with Alaska Department of Fish and Game 
where I worked as a wildlife biologist for 28 years, and I 
spent 24 of those years as the Area Wildlife Biologist here on 
the Kenai Peninsula.
    After retiring from the state in '02 I was appointed by 
Senator Murkowski's father, Governor Murkowski at that time, to 
the Alaska Board of Game. And the Board of Game is, as many of 
you probably know, made up of seven members. We're elected or 
we're appointed by the Board, by the Governor, and then we're 
confirmed by the legislature to three year terms. I'm currently 
serving my fifth term, and I'm the Chairman of the Board of 
Game and I have been for the last couple terms.
    However, this morning I'm only representing the interests 
of Safari Club International (SCI) as I testify to some of the 
local concerns related to declining wildlife populations, 
restrictions to access and lack of protection from wildfires as 
it relates to a healthy forest.
    At this time, I'd like to introduce Spencie Neschert. 
Spencie is the local President of SCI. We flipped a coin to see 
who was going to testify. I'm not sure if I won or lost, but 
I'm glad to be here. I think I won to be here to testify this 
morning. I'm very grateful to be here to talk to you folks, 
especially to the Committee.
    I'd like to focus my comments on the Kenai National 
Wildlife Refuge that comprises about 70 percent of the game 
management unit that we're in right here. This is 15A. And if 
you have the opportunity to read my written testimony, you will 
know that the Kenai National Moose Range was assimilated into 
ANILCA as part of the new Kenai National Wildlife Refuge by the 
addition of about 200,000 acres of Federal land.
    The purposes of the expansion and inclusion of the Moose 
Range into the Kenai National Wildlife Refuge are there's three 
prominent goals that they have. A is to perpetuate a nationally 
significant population of moose, B is to protect populations of 
fish and wildlife and their habitats including moose and other 
mammals and water fowl, and three is to provide opportunities 
for wildlife-oriented recreation in a matter consistent with 
the purposes specified in subparagraphs A and B.
    Now let me take you back quite a few years. In the early 
70's the refuge, this Kenai National Wildlife Refuge, then it 
was the Moose Range, was clearly known as a leader in 
developing and implementing techniques to enhance habitat for 
moose and a variety of other species that depend on early 
serial stages of forest growth.
    In fact, in the early 70's I attended an international 
moose conference. It was held in Seward, and one of the 
featured events of this international moose conference was a 
field trip near the refuge to look at the techniques that they 
were using to enhance habitat for moose. They were, without a 
doubt, the leaders and known worldwide for habitat that was 
done on the Kenai. This leadership role halted in 1976 when the 
service changed their policy from a proactive agency to a more 
passive management approach, where we are today.
    I've also, in my written testimony, included a peer 
reviewed paper that outlines some of the issues addressed in 
the early 90's as far as habitat and moose and where the 
population may go, that was written by the current refuge 
manager. I don't know if he is here today. Perhaps he is. He is 
here today. The Refuge Manager that wrote this is here today. I 
would encourage you to look at this manuscript or this paper, 
because it outlines exactly what they thought in 1991. And the 
clear message was if habitat enhancement is not continued moose 
numbers will plummet, and they certainly were correct.
    I'd also like to direct you to the service's comprehensive 
management plan. If you have a chance to read that, it's very 
informative, and they have a goal in there to enhance 5,000 
acres annually.
    And in my interpretation and that of the SCI, I don't think 
this should be used as with the wildfire. It should be used as 
acreage that can be counted as this 5,000 should be enhanced 
because wildfires don't always happen in the best places to 
benefit, not only the wildlife but protecting people and so 
forth whereas enhanced areas through prescribed burns, 
suppression and so forth do.
    There's also a goal in that. It's called a CCP, the 
Comprehensive Conservation Plan, that addresses a goal of 
maintaining about 3,600 moose in this sub unit, 15A.
    Presently our moose population is in severe decline. In the 
early 80's state biologists estimated about 4,300 moose in game 
management Unit 15A. In a similar study in 2015 found about 
1,200 moose, about a quarter, less than a quarter.
    I also looked at a comparison of a five-year period in the 
early 80's as far as for local harvest, and during that time 
hunters took about 293 moose per year. I also looked at the 
last five years, and the last five years the average has been 
22 moose with a range of four to 35. I want to tell the public 
and the Senator, people have pretty much abandoned hunting 
moose on the Kenai because our moose numbers are so low.
    Now that the moose population is less than a quarter in 
size compared to 30 years ago, predators are now accelerating 
the decline. We now have what is called a predator pit where 
regardless of how much the area is enhanced, the habitat is 
enhanced for moose, the moose population will not recover until 
the impact of predation is temporarily reduced. But the Service 
refuses to allow effective predator control although there are 
strong proponents of their own predator control as long as it 
doesn't include wolves or bears. Additionally, trappers willing 
to harvest wolves to benefit moose survival have been saddled 
with very restrictive regulations on this refuge.
    You know, a comparison was made by a colleague of mine when 
we talked about predator pit and habitat enhancement and the 
debate between predator/prey relationships and so forth. And 
the comparison was that creating more habitat for moose 
population in a predator pit is like trying to fill a water 
bucket without patching the hole in the bottom because it 
really--you have to have both. You really can't do with one 
without the other.
    And another colleague, a couple years ago when we were 
involved in a moose calf study here on the Kenai, made the 
comment that habitat enhancement in 15A would just provide for 
fatter moose for the wolves to eat. [Laughter.] I think he was 
exactly right. The Service's policies are not perpetuating 
significant moose population and by law they're required to do 
so.
    And until the Service has passed its management policies 
driven by the preservationist ideology of natural diversity and 
biological integrity are removed, no one should have any hope 
that the moose population will recover. Restoring moose numbers 
will not only provide additional animals for locals to harvest 
for food security, but will provide moose for viewing and prey 
for predators.
    Senator, there's just a little bit more I'd like to talk a 
little bit about public access.
    The refuge, I'll have to proudly admit that they do an 
excellent job when it comes to maintaining trails for hiking, 
for canoeing. There's a lot of camping areas that are excellent 
camping areas on the Kenai.
    The one place I think we're lacking is just public roads, 
gravel roads, where people can access the refuge. There's 
several gravel roads on the Kenai, all of which are in 15A. One 
of them is the Skilak Loop which is maintained a little bit in 
the summertime, not in the winter. There's good fishing there 
in the wintertime. It's difficult to get to if we have a normal 
winter with lots of snow.
    But the one I'm really concerned about is Mystery Creek 
Road. Mystery Creek Road is about 12 miles long. It's a gravel 
road. It's used extensively in the fall by hunters. I think, 
and SCI has talked about this, it could be open from the first 
of May through the end of October. Now the refuge has a design 
plan right now to improve the access to that where you turn off 
from the highway because it's really steep. If there's snow on 
the road like there is sometimes in October, you slide down the 
hill and you run into the gate which has been done. I think the 
gate just could be moved a little further down the road where 
it's flat. I think the gravel that's going to be used to 
improve this access point should be put on the road, improve 
the road. There's also several lakes off of Mystery Creek. If 
the refuge was willing to provide some camping areas and access 
to those, I think those would be really appreciated by the 
local public and would also remove some of the crowding or 
reduce some of the crowding effort that we have with other 
campgrounds and other fishing areas that we have on the Kenai.
    One last thing about public access as far as the Mystery 
Creek Pipeline Road. There's three airports. There's three 
airstrips on that road. There's only one that's open to the 
public. The other two are pretty much overgrown.
    And the one that is open, although it provides good water 
fowl hunting, there's a cabin there. It's the trickiest one to 
land on, and the other two, I think, should be cleared and open 
for public use as well.
    As far as wildfires, there's certainly been a lot said 
about that. But in the past decade the peninsula has witnessed 
several large wildfires, largely human caused. The refuge, 
along with state and U.S. Forestry and other agencies, have 
certainly done an excellent job battling these threatening 
wildfires to minimize property loss, but the communities of the 
peninsula are still far away from being safe.
    And there's been years of talk that there's been very 
little action as far as building these fire breaks. And one of 
the things I'd like to point out is there's another purpose to 
prescribed burn and fire breaks and so forth in addition to 
wildlife--wildfire protection. And in addition to the loss of 
habitat at high mortality due to predation on moose, about 200 
moose are killed annually on local roads.
    And as the moose numbers drop animals killed by vehicles on 
roads have become a significant contribution to this decline 
plus high property loss, human injury, including some 
fatalities. If we can clear these fire breaks and do it wisely 
and do it in the proper areas, in the proper habitat types, 
there is an opportunity to encourage moose to not use our roads 
so much, to make areas more available to moose and habitat 
available and attract moose away from our highways. Because 
unfortunately right now, about the best moose habitat on the 
Kenai is along our highways because of the Department of 
Transportation's four or five year cutting program. So 
hopefully we can do fire breaks, and hopefully they're done 
wisely and done in the right places, in the right habitat 
types.
    I know the Senator has referred several times to the 
Federal public lands as ``open until closed.'' In our opinion 
the Kenai National Wildlife Refuge has clearly adopted a 
philosophy of ``closed until open.'' And we sure hope you 
address some of these issues, provide for more access.
    And as a hunting organization, conservation organization 
that supports hunting, we're just very hopeful that this 
Committee can address some of these issues here on the Kenai 
and other places in Alaska. We have a lot of predator control 
issues across the state where hunters are not having an 
opportunity to harvest game because of a lack of predator 
control and trying to get these predators and prey in somewhat 
a balance.
    I want to point out one that hasn't been talked about and 
that's the Western Arctic Caribou herd. A lot of that is 
Federal land. That herd is going to be counted again this 
spring. If it goes below 200,000 the intensive management 
program kicks in place. If that kicks in place, there's going 
to be a lot of reduction in hunting. The only way to correct 
that is probably to reduce, temporarily, the number of wolves 
preying on caribou and almost all of that is BLM land/Federal 
land.
    So the battle is about to begin, and that is a huge issue 
for food security in Western Alaska for a lot of our residents.
    So, I know I've gone more than my five minutes, Senator. 
Thank you very much for the opportunity. I really appreciate 
it.
    Thank you.
    [The prepared statement of Mr. Spraker follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    The Chairman. Thank you, Ted.
    Well, thank you. There is lot of good information out on 
the table. We have got about an hour or so to have some further 
discussion and build out some of the topics that you have each 
raised.
    Let's start with just, perhaps, a more specific focus on 
fire, because when you think about the economic impact of fire 
in a region like the peninsula here whether it is the impact on 
your tourism, you have folks that have a reservation to come 
down and go out fishing or go over to a cruise out of Seward 
and you are shut down because of smoke. You have the lost 
revenue that comes from cancellation of bookings. You have just 
the reality of that economic impact. But when you think about 
what it means beyond the actual fire itself, smoke in a region, 
perhaps temporary road closures.
    When the habitat has been impacted, whether it is along our 
streams and that is impacting habitat where our fish are coming 
up or now have no place to really feel safe as they are moving 
in and out. Whether it's the impact to the land that creates 
the brows. The impact on our hunting and fishing and those 
opportunities well beyond the actual fire itself. The impact 
that you have when you have actual property loss.
    We are going to start off with you, Chris, in terms of the 
road blocks that you see that prevent the various land 
management agencies from really dealing with the hazardous 
fuels reduction that we know has to take place in order to 
reduce the risk, to move forward with whether it is a level of 
timber harvesting, thinning or the fire breaks that we have 
talked about.
    What is it that is holding us back? We have talked a little 
bit about having the appropriate resources, and we recognize 
that at the end of the day so much of this comes down to money. 
But we have also seen situations where, even if you had the 
money, you have regulatory road blocks. You have got to go 
through your various NEPA analysis before you can move forward 
with that road, with that fire break.
    Talk to me a little bit about what we can do better to 
prevent these really significant fires that then have such 
consequential economic impacts to a region like the peninsula? 
What do we need to be doing resource wise, regulatory wise and 
just in the bigger picture?
    Mr. Maisch. Okay, thank you, Madam Chair. I'll do my best 
to----
    The Chairman. I don't know, can you folks hear him in the 
back okay or do we need the mic? You are good? Okay.
    Mr. Maisch. You're good? Okay.
    Well there's a quite a number of things we need to do to 
help address these issues, and a lot of it has been touched on 
here by the speakers today.
    I would emphasize a couple of key points. I did make the 
point about the NEPA and the planning process, as you've heard 
from others about the whole planning process situation. And I 
would go back to the Funny River fuel break project. And I 
refer to these as fuel breaks. I know everyone here has been 
referring to these as fire breaks, and to a fire person there's 
no such thing as a fire break.
    A fuel break is probably the term we like to use because 
even with a fuel break, fires on the Funny River Fire when that 
wildfire approached that we lit the burn out. We had a lot of 
spots that went all the way over that very large fuel break 
which we were able to catch because we could see them. We had 
access. We had aviation resources.
    So I know what you mean when you say fire break, but it 
sends a false sense of security, I think, sometimes to the lay 
person that may not be familiar with it. They think there's a 
fire break there. It's not going to cross it. But that, 
unfortunately, is not the circumstance.
    The Chairman. Okay.
    Mr. Maisch. So with that Funny River project one of the key 
things there is I know in some of the legislation that's put 
forward to help Federal agencies do a better job is categorical 
exclusions for certain projects.
    The problem with most of the CX projects, as they're known, 
is that the treatment sizes are probably too small. They're 
really a postage stamp treatment in a landscape that needs a 
lot larger scale approach. And again, that particular fuel 
break is a pretty good example of that.
    Our fire managers have talked a lot about the lands here on 
the Kenai. And we would really like to see a system of fuel 
breaks and a shaded, more complete, kind of, an in depth 
defense, if you would, between the Federal lands and the 
communities that are up against these Federal lands.
    Because a lot of the fires, I keep looking at this map 
that's sitting right here that the Mayor has that shows the 
fire scars over the past years on the Kenai Peninsula. And a 
majority of them start on the Federal landscape and they 
spread, you know, to various portions of the peninsula.
    So I think to help communities have at least a sense of 
comfort that we are aggressively doing something to treat fuels 
and to provide a reasonable chance of success should a fire 
start and we are trying to protect a community like happened 
with the Funny River situation.
    The other aspect I noticed with Federal agencies is they 
have really lost, in many cases, capacity to actually do 
projects themselves. They have to rely on partners like the 
states. Good Neighbor authority is a good example of an 
authority that's help, to some degree in the country, with 
addressing projects that the Federal agencies can't perform 
themselves.
    Again, the Funny River project was a good example where the 
state agency actually performed the work. The funding came 
through Federal sources, but that work also had to be done on 
private lands and rural lands which was good that the Borough 
and the private landowners stepped forward.
    To my thinking that should have really been on the Federal 
side of the line where that project actually occurred. But we 
didn't do that because of some of the NEPA challenges that we 
would have had to have gone through. And in fact, if we would 
have tried to do a NEPA process, that fuel break would have 
never been put in place in time to serve the purpose that it 
did just two years ago.
    The Chairman. Well of course, that is the great frustration 
here because the fire could care less whether this is Federal 
land or private land or State land. The expectation, I think, 
from the public is all those involved, Federal, State, local, 
tribal, whatever, wherever, whoever you are. It does not make 
any difference that we have some way to work collaboratively in 
the event of these disasters.
    We talk a lot about interagency cooperation and 
collaboration. In your view, do we have some good examples?
    I think many of us look to the Funny River Fire as an 
example where there was some pretty good coordination. If there 
is any grumbling about who was the most difficult partner? What 
I am hearing it is always the feds that were the more difficult 
partner.
    So the question that I have is, again, and I appreciate 
what you are saying about making sure that we have got an 
opportunity for larger scale approaches with categorical 
exclusions, but how can we make sure that that Federal partner 
is not the one lagging behind?
    Mr. Maisch. Right, not an impediment.
    Well I think on that point, you know, a landscape scale 
NEPA analysis would be one tool, potentially, to approach this. 
Where if you have to do NEPA, which we will if we're doing 
Federal projects on Federal land, at least clear a very large 
landscape so that you can tier multiple projects out of that 
one analysis so you're not continually doing additional NEPA 
each time you propose a project.
    The Chairman. Right.
    Mr. Maisch. And there's some examples of that around the 
country where they're attempting to do that right now in Prince 
of Wales with a landscape scale analysis, in that case for 
timber sales as opposed to fuel mitigation work. And there's 
some other examples around the country where places have tried 
that approach.
    I have to say that, really, the Kenai is a very good 
example where we've had a lot of good interagency cooperation. 
The Federal agencies have been the best, I think, that they can 
with the toolbox they currently have in place. Although, I do 
think they lost capacity in their ability to actually do these 
projects on the ground.
    And that's worrisome. We see that both in the Forest 
Service, and we see that across a lot of the different Federal 
agencies. I think you alluded to some of that with your 
discussion about management on the refuge.
    So I'm not quite sure what the answer to that particular 
point is, but that is definitely an observation from our point 
of view.
    The Chairman. Let me ask, and I will tie the Mayor in on 
this because I think we recognize that there is a host of 
different things that can make the threat of fire be even more 
daunting. One is just not managing, but when you have an 
epidemic like we had with the spruce bark beetle some years 
ago, you could see that coming. You could see that coming and 
you knew that we were going to be paying for this with a 
lightning strike that was just placed in the wrong spot or 
somebody who is out in the woods and was being a little bit 
careless.
    We can pray for cool, wet weather, but that is not a very 
good policy, really, when we are talking about how we can 
improve forest health. So when it comes to limiting the damage 
that we can see from something like a spruce bark beetle, and I 
understand that we are actually looking at a new, it's not a 
beetle coming in, it is some kind of an aphid, and it is 
causing the needles to literally turn brown and drop to the 
ground. We all know that you light that on fire and it is just 
like popcorn going off. I am not one who thinks that we are out 
of the woods when we think about the impact of insects and how 
they are, again, adding more tinder to the forest floor. 
Outside of, perhaps, spring, which I do not know that this is 
possible, how can we work better, and again more 
collaboratively and smarter, in dealing with some of these 
forest health issues?
    Mayor, I am going to put you on the spot on this one 
because you have talked a lot in your testimony about what $20 
million in Federal dollars did to help reduce fire hazards. I 
want to know what you think we can do in the Borough to help 
continue to reduce the risk of wildfire.
    I am going to throw this one at you because we learned just 
last week there was a call from one of my staff to the Forest 
Service Washington Office. We were told that there were not any 
projects needed on the Kenai because outside of 2014 the forest 
areas in the Chugach seem quite healthy to them.
    Now what do you do with that when everybody says, okay, you 
guys are doing just fine, so we do not think you need any more 
resources from within Forest Service budget.
    I am throwing it out there to both of you in terms of what 
can we do more on the preventive side whether it is working now 
to work on things like fuel breaks, the larger scale 
approaches. But what do you do when everybody thinks that we 
are ``healthy'' right now?
    Mr. Navarre. Well you could put a rider in a piece of 
legislation and----
    [Laughter.]
    The Chairman. There you go.
    Mr. Navarre. You know, I guess from my perspective it does 
boil down to resources.
    The Chairman. Take the mic there.
    Mr. Navarre. Including the aerial photography so that we 
can do some vegetative mapping, so that we know what the 
resources are.
    One of the things about the Funny River Fire that was 
interesting was that the live trees were far more volatile than 
the dead trees were. And I didn't know that, that the black 
spruce were going off like crazy and identifying where the 
various fuel sources are and then on Federal land, having some 
ability. The NEPA process is slow, cumbersome and expensive.
    I know it has to be done, but there's got to be something 
that recognizes what happens more predominantly in Alaska than 
anyplace else in the country and that is with all of the 
Federal lands that we have, the urban/rural interface is 
wildland urban interface, is it's all over the place. And when 
we see these fires start on Federal lands and they don't 
recognize boundaries. They move, they can move very, very 
quickly and when we end up with a huge disaster everybody is 
going to be pointing to the reasons why it shouldn't have 
happened and that somebody should have done something.
    So I think a collaborative process that's facilitated 
between Federal, all of the various interest groups, that would 
allow for putting a plan together that could, maybe even as a 
Kenai Peninsula, we'd be happy to do it as demonstration 
project to show why it's important to create an ability to move 
a little bit quicker than is allowed for now.
    I think one of the things that is sometimes frustrating, 
well I know it's frustrating for a lot of people, whether it's 
users, hunters, fishers or with Federal entities is we get, I 
guess we get the response that it can't be done. Oftentimes 
what it takes is folks who are willing, and I think the 
managers have been willing to say, wait a minute. Instead of it 
can't be done, how can we do it and what are the impediments to 
responsible management of all of the land including all of the 
Federal lands? So again, it boils down to resources to do some 
of the mapping and the aerial photography on a continuing 
basis. It takes----
    The Chairman. How far along are we in the mapping would you 
say percentage wise?
    Mr. Navarre. We have a great system at the Kenai Peninsula. 
We are constantly trying to update it. I think the last 
photography that we have now is 2012. So we need some 
additional resources in order to do some over flights again.
    And the reason we do aerial photography instead of 
satellite photography is that it, aerial photography, can be 
shared. There's no impediment against or there's no restriction 
on its use whereas with satellite imagery it's--there's more 
restrictions on it.
    So, either remove the restrictions on satellite and then we 
could utilize that or else the aerial photography is the way to 
go and it allows us to do high resolution where we can see the 
vegetative map and we can identify where the changes are in the 
landscapes. We can see where the high fuel sources are and 
where the, I guess, where the changes are happening.
    And then, as importantly, using that information in order 
to put together a responsible management plan.
    The Chairman. Chris, what would you add to that?
    Mr. Maisch. I think I'd add a few things.
    One in particular, a lot of the Federal agencies are really 
focused on restoration of various ecosystems around the country 
including in the Tongass it's focused on restoration of mostly 
salmon habitat. In the far south it's long leaf pine. You can 
go around the country and there's different restoration 
efforts. And it's always perplexed me that on the Chugach we 
don't actually have a restoration effort or at least an active 
restoration effort.
    The Chairman. Have we ever?
    Mr. Maisch. We established forests that were destroyed as 
part of the bark beetle outbreaks in the 80's and 90's. There's 
been some activity, mostly on private lands and some state 
public lands, but not a lot on Forest Service lands.
    As you know the current forest plan is being revised for 
the Chugach, and it's the one national forest, that I'm aware 
of in the country, that does not have an allowable cut in it. 
And to my way of thinking, you have to manage that resource and 
have the ability to have some timber harvest to help restore 
the forest to a healthy state.
    So, I think a lot more could be done with the Forest 
Service in terms of approaching restoration of this habitat. We 
have grasslands that have established themselves that several 
speakers have mentioned. That's a really difficult fuel type 
forest because it's very light and flashy. It dries out quick, 
presents a whole new level of danger for firefighters, and it's 
also very difficult to reestablish trees once that grass type 
has established itself. It's very difficult to deal with that.
    So it won't be an easy task, but it's one of the things, I 
think, that has to occur through this collaborative process the 
Mayor has talked about. It's got to be all landowners. It's not 
just the Federal landowners, but they're really a key because 
of the amount of ownership they have here.
    So----
    The Chairman. Before we move off fire, I am going to ask 
the question that everybody wants to ask you which is what is 
the fire outlook for the Kenai Peninsula?
    Mr. Maisch. Well, it was, for the first three months of the 
season, so that's April, May, June, predictive services which 
is our intelligence part of the fire operations up at the 
Alaska Interagency Coordination Center looks at indexes around 
the area, long-term climate issues, a whole variety of things. 
And for the Kenai and the Mat Valley through the end of June, 
it's a higher than average risk factor. And we've seen that 
already with a number of starts that we've had in both the Mat-
Su and the Kenai, it's still really dry out there.
    As the Senator mentioned, we've had several carry over 
fires. One, a couple from the 2014 fire which is very unusual. 
Typically, in a year we have maybe one or two carryovers 
statewide. We've had 14 already this year statewide.
    So that just is a reflection of less snowfall over a lot of 
the state, a lot drier fuels. We've also had about 200 fires to 
date statewide which is about on track for a normal season, as 
we would call that. But a normal season means almost two 
million acres are going to burn in the state.
    We've had very light lightning activity so far, but where 
we've had lightning activity, which is mainly out in McGrath, 
we've had fire starts from that lightning. I think we had three 
lightning starts over the holiday weekend here.
    So that does cause me some concern that as we enter 
lightning season which is June, we could see significant starts 
from lightning statewide. Really, the next three weeks will 
tell us how we're going to fair with that lightning part of it.
    To date, out of those 200 fires I mentioned, only eight of 
those are lightning-caused. All the rest have been human-
caused. So technically all of those fires would be preventable.
    So that's really one of our key places that we feel like we 
can make a bigger difference is on prevention, and that's why I 
stressed some of that in my comments earlier.
    So----
    The Chairman. Yes.
    Mr. Maisch. Let's hope it's a less than normal season. It 
will be perfectly acceptable to me.
    But 2004 was the tipping point for this state. We went from 
burning about 800,000 acres a year to now almost two million 
acres a year on average. So I think due to long-term climate 
issues we have definitely seen a big change in the amount of 
fire on the landscape and the length of the season.
    So----
    The Chairman. Yes, and again, praying for cool, wet weather 
is really not a policy that you can bank on. Yet it seems that 
sometimes that is what we are waiting for, or if you have got a 
fire underway, we are just going to pray that the wind changes 
and that is going to be our answer. We have much that we need 
to be on alert for.
    Let me move just a little bit and talk to you, Cindy and to 
Ricky and Ted, on where we are right now with our Federal 
agencies, whether it is Forest Service or otherwise, in terms 
of some of the permits that our folks need whether you are an 
outfitter, whether you are seeking to bring skiers up for a 
great heli-ski adventure. We are hearing some real 
dissatisfaction about the timeliness of getting these permits 
issued. We are hearing that the Forest Service has again 
limited or perhaps not opened up these general solicitations 
for some of the concessions. So can you give me a little more 
insight?
    You have spoken specifically, Cindy, to the Silverton 
Mountain Guides and their efforts, but are you hearing from 
others in the Seward tourism business about the permitting or 
application process for either conducting tours in the Kenai 
Fjords National Park or in the waters around Prince of Wales or 
Prince William Sound? Is this just limited to Forest Service? 
How difficult is it across other Federal agencies?
    Ms. Clock. Well as everyone probably knows Kenai Fjords 
National Park really put Seward on the map in the middle 80's, 
and there are lodges and other concessionaires that work. It 
seems to be a fairly easy process for them to work inside the 
national park.
    The Chairman. Through the Park Service?
    Ms. Clock. Yes, through the Park Service.
    As far as with the heli-skiing, it may not be new to some 
parts of Alaska but it is new to this area. And I think, maybe, 
the Forest Service does need to just, maybe, change philosophy 
or undergo a little paradigm shift where they shouldn't have to 
go out and solicit for vendors. It should be an open permitting 
process to where, I mean, why would they go out and seek people 
to bring heli-skiers up into the Chugach? It seems a little 
backward.
    So it's not even that they wouldn't grant the permit. It's 
that they, well, we didn't ask you to apply. So we're not even 
going to consider it. That was some of the communications that 
I got a hold of through a letter to Ms. Blackwell.
    So it just, it seems not very conducive at all to economic 
development. I know that it doesn't seem like a big deal to 
bring 24 extra people to Seward each week in the winter time, 
but it really is.
    So that's--I don't have a lot of experience about other 
guides and outfitters asking for permits. Right now it's just 
the heli-skiing.
    The Chairman. Okay.
    Ms. Clock. Yeah.
    The Chairman. Yes.
    Ricky, did you want to weigh in?
    Mr. Gease. Yeah, I just wanted to talk about two things.
    One is I want to say that the process of the Kenai National 
Wildlife Refuge has for upper river Kenai River guides in place 
is a good process. It's concessionaire based. It's not a 
transferable permit so whoever has the most amount of money 
gets permitted. It's actually based on qualifications, 
experience, and I think that's a great process to follow and I 
want to give kudos to them for that.
    You were talking about the Chugach National Forest. One of 
the things that concessionaires need to be able to make use of 
is infrastructure, and in Western Prince William Sound there's 
been a wilderness study for 20 some years now. It's one of the 
slow, slower moving studies that we have in the Federal 
Government, and that's preventing public use cabins from being 
installed in Western Prince William Sound that people, whether 
it's the members of the general public or concessionaires, can 
sign up and make use of.
    I was a park ranger for Kenai Fjords National Park for six 
years during the 1990's, and for the first three years it was 
no and hell no are we ever going to have public use cabins on 
the Outer Kenai Fjords. And then suddenly there was a rider 
from Senator Stevens and voila, we had four public use cabins 
out on the Outer Kenai Fjords.
    The original mindset of the regulators of the 
superintendent at the park was it's just not acceptable to have 
infrastructure, public infrastructure, on this outer, 
wilderness ``areas.'' And it's probably one of the best things 
that the park has done.
    The Chairman. Yes.
    Mr. Gease. It allows visitors a safe and secure environment 
to enjoy the wilderness experience. And if you don't have 
people out experiencing wilderness not everybody is going to be 
out there, you know, in their tent in rainfall and with 
populations of bears, whether black bears or brown bears. 
People want to feel those safe and secure environments, and I 
think public use cabins are just one of the ways to increase 
that opportunity and access into wilderness or remote areas 
that are on Federal lands.
    The Chairman. Is some of what we are seeing necessarily 
regional but with the ease of either getting a permit or just 
working through some of the one size fits all regulations that 
we deal with as you have Federal agencies? Does it depend on 
who your refuge manager is? Who is the district manager is? 
Does it get as, I guess, parochial as that? Sometimes it is 
good and sometimes it is bad depending on who we have assigned 
to the region?
    Mr. Gease. I think it does. I think people at the end of 
the day, people in positions are doing their jobs and if they 
have experience and they understand, I think, kind of, why 
Federal lands are so important for tourism, outdoor recreation, 
hunting and fishing. And you have regulators who are welcoming 
of the public on Federal lands instead of an us versus them. We 
want to limit access. We don't want you to go there.
    But say no, we welcome you. We want you to visit these 
lands in a safe, secure, accessible, meaningful manner. I think 
that makes a lot of difference. I think at times you, kind of, 
flip flop through philosophies that, kind of, filter and 
trickle down through the government and some of it or people 
saying that we don't want people on public lands and other ones 
are very welcoming.
    It's like going to DMV. I mean, is that going to be a great 
customer experience or really crappy customer experience? I 
think you've got both of those type of personnel and 
philosophies within the Federal Government.
    And from my experience on the Kenai Peninsula, I really 
look with respect and admiration to those Federal officials 
that have a welcoming approach to people accessing in a 
meaningful way. For example, if you go up to Exit Glacier. For 
many years it was a really crappy--I'm just going to be 
brutally honest. It was a rock road, gravel road going out 
there that would get wash boarded. And somehow some people at 
the national park thought that if you struggled to get to the 
wilderness, somehow seeing Exit Glacier was going to be a more 
meaningful experience for you which I thought was a bunch of 
caa caa. I mean really, it was just a stupid way.
    And then once again, Senator Stevens got involved, I think, 
and then the funding got in to pay for Exit Glacier and put in 
a meaningful parking lot and so people aren't jammed on each 
other and parking on the sides of the roads because it's a 
popular destination. At the end of the day people were out 
there and said, wow, this isn't so bad after all. It's nice to 
have a road to go visit one of our beauties of our national 
parks, and to see a crown jewel and to be able to walk up and 
see a glacier.
    I mean, so there's differences in philosophies. And I think 
that one of the things on public lands is an approach, whether 
you're somebody who is getting a guided experience or on your 
own, is to have a welcoming experience from the Federal 
Government on Federal lands as a citizen of this country and 
from people all over the world to say, you're welcome to come 
here and we've provided the infrastructure and access for you 
to have a great experience. People come to this peninsula 
because they can experience some of the best days of their life 
on this peninsula on Federal lands.
    That's how great this area is. That's why it's so popular. 
You talk to anybody and they're like, wow, I've never 
experienced that. I've never seen a glacier. I've never hooked 
a king salmon, never had halibut, never seen whales. Wherever 
they go across this peninsula you can have the best day of your 
life.
    I think it should be yes, protection is important. But we 
can also do it in a way that we provide meaningful opportunity 
for people who are visiting here.
    The Chairman. Well that is a great advertisement for the 
Visitor's Center here on the peninsula. We appreciate that, and 
I think you are right. You can have one of your best days here.
    One of the things that I hear from Alaskans, though, is a 
frustration that Forest Service is different than BLM, is 
different than Park Service, is different than Fish and 
Wildlife Service. It is not unlike what we were talking about 
earlier when you were talking about fire. Fire knows no 
boundaries there. It does not care whose land it is tearing 
across. But when we talk about access and public lands being 
public, what I hear a lot of is that well, it means different 
things if you are on Forest Service lands than it does for 
instance on Park Service lands.
    Some of what we saw back when the Federal Government was 
closed for that period of time. Ricky, you will have to refresh 
my memory on this, but there was some concern that if you put 
in on the Upper Kenai and you are drifting down the Kenai, and 
you move from basically the parts of the river that are 
surrounded by refuge versus coming through into non-refuge 
areas, you are subject to different rules, different 
interpretations, a little bit different example than what I am 
talking about between the various public or Federal agencies.
    This is something that, as I am talking to folks, there is 
a degree of frustration that they do not see a level of 
consistency in terms of how we would define access for whether 
it is the hunter or whether it is the person who is just going 
out hiking, and they want a level of consistency there.
    Ted?
    Mr. Spraker. Senator, I'd like to offer a very clear 
example of that from the hunter's aspect.
    If you would like to hunt in Unit 7, which is U.S. Forest 
Service land, and would like to harvest a bear using bait, 
you're allowed to do it. There's no real restrictions. It's 
pretty much wide open. I have participated in some of the 
orientation programs with the Department of Fish and Game and 
the refuge and U.S. Forest Service and so forth, and they 
actually encourage people to come to Unit 7 and take bears. 
They also allow them to take brown bears over bait which is a 
real controversy over on this side on the refuge.
    Now the refuge has, I think, a very well thought out plan, 
although it's very restrictive. They only allow the taking of 
bears using bait as a method in a very small portion of 15A, 
and they do not allow the taking of brown bears. So that 
focuses the effort.
    If you want to take brown bear on the state land or the 
U.S. Forest Service land, there's a real inconsistency in those 
two. I know from talking to hunters it seems like that should 
be a simple fix. The refuge should allow the taking of bears 
because this is a difficult place to hunt bears because of the 
dense vegetation, and the use of bait is a very successful 
method.
    It's also been proven that hunters can be very selective. 
And one of the management tools on harvesting bears is to not 
allow hunters to take too many of the adult females. That works 
really well if you have a bait station you could take your time 
and you can avoid taking females, and it's been shown that it 
works.
    So that's an inconsistency between Federal agencies that I 
wish we could address. It would provide for a lot more 
opportunity for hunters, and it would reduce some of the 
confusion that hunters deal with, with regulations.
    Because you mentioned floating down the river, it's the 
same thing here. If you go on state land it's one regulation, 
you go on Federal land it switches, and it's always confusing.
    The Chairman. Let me continue with you, Ted, just relating 
to the hunting impacts of these Fish and Wildlife proposed 
regulatory changes.
    I certainly share many of the concerns that you have 
raised. We had a witness from Safari Club International speak 
before our Committee back in December when we had a hearing on 
ANILCA. She mentioned at that time that these proposed regs, in 
her view, amounted to a takeover of our state's authority over 
wildlife management. The concern was that while this is 
happening in Alaska and clearly very state specific, the issue 
that she was raising was a fear that this could set the stage 
for similar actions in the State of Alaska. This was not just 
looking at regulations in Alaska and the impact there on the 
ground but again, this move by an agency to really insert 
itself into the regulation, the management, of hunting that 
would otherwise be left to the states. Can you comment on that?
    Mr. Spraker. I certainly can, but I can't add much more to 
it other than the fact that of the proposed rules and the bite 
on everything else that's going on these days, one of the 
things that as a, you know, long time avid hunter living in 
Alaska, that's really frightening to me is that the authority 
that the state has exercised for years in management of our 
game is slowly being, not slowly, it's rapidly being taken over 
by the Federal system.
    And what is threatening to me is the process that they're 
using. They no longer go to the state agencies and try to work 
with those and compromise with those. It seems like what we're 
hearing and seeing more of is Federal agencies can make a 
ruling. For instance, the brown bear being on the Kenai. That's 
a value judgment. It has nothing to do with biology, good, 
sound science. We have quotas for those bears, we reach the 
quotas, and the state shuts the season down.
    The refuge came in a couple years ago and closed the brown 
bear hunting on all the refuge. Everything else was open but 
they had the authority to do that, and that's the frightening 
thing to me is I see this moving rapidly throughout the Federal 
system, to usurp the authority of the state to manage our 
wildlife. That's the threatening part to us.
    The Chairman. If that happens and we see that, kind of, 
play out on the Peninsula, the impact to access to the lands, 
the impact to the people, the businesses, the local economy 
going forward, is effectively shutting things down.
    Mr. Spraker. Yes.
    The Chairman. Let me ask, again, when we think about the 
economy here on the peninsula, so much of it is tied to our 
outdoor spaces. It is our opportunity to fish, to recreate, to 
hunt, to hike, to really take advantage of our lands. Again, 
when you think about how we care for the lands, the impact that 
we have seen because of fire has been something that has had 
negative impact to us.
    From your perspective, and I am going to throw it out to 
all of you here, and again, I am asking you to look at this 
from the Federal lands because that is what we are trying to 
put on the record here, what do we need to be doing? What 
should we be doing to promote a healthier economy here on the 
Kenai Peninsula and from the perspective of whether it is 
regulation?
    Ricky, I will go back to your example of the proposal that 
we are dealing with just for access into the peninsula and our 
highway system and the fact that we have got some road blocks 
that keep people from perhaps making that decision as to 
whether or not they are going to come down to the peninsula at 
all because it is going to be a nice weekend and the road is 
going to be choked up and how we deal with that?
    What else can we be doing to promote the economic health of 
this peninsula?
    I am going broader than our hearing agenda here so you 
probably have not prepared for it, but this is my opportunity 
to figure out what else it is that we need to do to make a 
difference?
    Go ahead.
    Mr. Gease. I think it's just important on Federal lands to 
realize the importance of tourism on the Kenai Peninsula. Kenai 
National Wildlife Refuge generates the third highest amount of 
revenues of any refuges across the United States. The other 
two, the top two, are locations on the Mississippi River. They 
get millions of visitors.
    We probably get a million visitors on the Kenai Peninsula, 
probably, hundreds of thousands do visit the Kenai National 
Wildlife Refuge, and just their footprint here has a lot of 
economic value.
    So on that broad sense, I think, just generalized training, 
more interagency cooperation. When I was a park ranger we had 
interpreters who were the front line of interaction between 
visitors on the peninsula. We had seasonal trainings for all 
the agencies. It didn't matter if you were with the wildlife 
refuge or with the Park Service, with the Forest Service, or 
State parks, we all worked together, cooperatively, in 
interagency, kind of, trainings. I think to see of more of that 
and the continuation of that is important.
    There's also sometimes some really small regulations that 
prevent business and prevent commerce.
    We look at sea otters. There was an article in the Alaska 
Dispatch recently about why is the sea life center getting 
inundated with sea otter pups? Well because protection of sea 
otters has been wildly successful. [Laughter.]
    The Chairman. Yes.
    Mr. Gease. We're over the carrying capacity for sea otters. 
It just makes sense that sea otters, you know, they're very 
abundant now and some of them are getting lost because there's 
no suitable habitat there. If you go to Cordova or Southeast 
Alaska, if you see sea otters in the harbors, they're skin and 
bones.
    They're eating themselves out of house and home. In our 
commercial fisheries in Southeast Alaska and Eastern Prince 
William Sound, the crab populations are collapsing and we no 
longer have viable, commercial fisheries because there's too 
many sea otters.
    Well, the U.S. Fish and Wildlife Service has a regulation 
saying that the only people who can hunt sea otters by Federal 
law is Alaska Natives.
    Okay, well, that tribe is a tribe because it works 
cooperatively within the framework of a tribe. But these 
regulations say that you have to be the single person, an 
individual can only hunt and then transform a sea otter pelt 
into something of artwork. There can be no barter between 
members within a tribe. There can be no barter between a 
husband and wife.
    There have been people who have been convicted of saying 
well the husband goes and hunts the sea otter and the wife 
preps it. Well, sorry, can't do that. That's illogical. That 
prevents business.
    I mean, the first eight years of Alaska under Russian 
colonialism was based on sea otter furs and trade. It's a very 
valuable commodity that could be enumerable amounts of money 
could be generated for Alaska Natives as to go out and hunt. If 
they were allowed to barter with other members of the Alaska 
Native community, whether it's within a tribe or between 
tribes, to then transform that into pieces of artwork that 
could be sold to tourists here or could be exported. It'd be 
very, very lucrative. But because of that one regulatory 
restriction that says, an individual must go out, kill the sea 
otter and then switch hats and become an artist. Well, how many 
people here are expert marksmen and expert artists?
    The Chairman. I am. [Laughter.] I am just kidding, just 
kidding.
    Mr. Gease. But you're not Native Alaskan.
    The Chairman. No, so moot.
    Mr. Gease. I mean, traditionally there's separations of 
work in tribes just like there are in any other communities, 
and yet we fail to recognize that at a basic level of providing 
access to a resource. And then we wonder why? Why are there so 
many sea otters? Wow, the sea life center is going to go broke 
trying to take care of all these sea otters. Well they're not 
endangered any more.
    The Chairman. That is good.
    Mayor, what are you hearing from your constituents because 
they are coming to me and they are saying Forest Service is 
cracking down on activity as a small miner. We mentioned the 
concessions, and Fish and Wildlife imposing these new regs. If 
I am hearing them I have to figure that you are hearing them. 
What else are you hearing that perhaps has not gotten to me?
    Mr. Navarre. You know, I guess what I would--my observation 
is that despite all of the complaints and sometimes angst, it's 
focused. Those are focused oftentimes on specific incidents or 
rules or regs that come out that create a hot button issue at 
the time. By and large it's been working pretty well here on 
the Kenai Peninsula.
    The Chairman. Good.
    Mr. Navarre. I say by and large. There's problem areas, and 
I do hear about those.
    From an economic standpoint, visitor industry is critical 
to the Kenai Peninsula. You know, we're a microcosm of Alaska 
and have, probably, the most diverse economy in the state, 
without, I think, without question.
    One of the things you pointed out earlier that I want to 
focus a little bit on is you mentioned the changing landscape 
when there is a huge fire. That is important because oftentimes 
after the resources are immobilized and they are incredible. 
It's an incredible process to watch when there is a fire 
incident how many resources and how much expertise is brought 
to bear in order to combat the fire, to protect life and safety 
and infrastructure.
    But it gears down just as quickly. Boy, when it's over they 
pack up and they are gone, and what's left is the scars on the 
landscape.
    And with climate change and warming temperatures, I'm sure, 
which mean that oftentimes we're already seeing impacts to 
habitat. You know, one of the things that we've talked about is 
streams warming and waters warming and what that does to the 
habitat for salmon, the resources that we rely on. And when you 
have the scars from a forest fire that denude, you know, right 
up to the water's edge, that has ongoing impacts. While it will 
regenerate over time, the reforestation efforts in those 
situations are critically important.
    So, the followup, oftentimes, I mean, we get the resources 
when there is an incident. What we often don't get is the 
resources before and after that are as critical and as 
important as during the incident.
    The Chairman. Well, you do not have the resources and then 
again, you have people that are looking at an area and saying 
well, really? Do I want to go down and camp in an area where 
there are no trees anymore? It used to be a nice campground 
area. It used to be a nice place to go fish, and they do not 
come back. They do not come back.
    Cindy, did you want to jump in there?
    Ms. Clock. Well I just wanted to say, to get back earlier 
to what you were saying about, you know, what could we do to 
help economic development?
    Wouldn't it be great to like, just sit down at a table 
together with the United States Forest Service, with the Park 
Service, with maybe the Mayor of Seward, maybe the Mayor of the 
Borough, whatever community we're going to talk about and, sort 
of, hash out the issues right there? And so, that would be my 
preferred way to move forward as face to face conversations.
    The Chairman. I think that is what the Mayor refers to as 
adaptive management. [Laughter.] I am looking forward to how 
you tailor these policies to a changing landscape, to social 
concerns, to just trying to think beyond where we are today.
    I think, oftentimes, the way our regulatory process works, 
both State and Federal, sometimes the regulatory process does 
not allow for a more nimble management. It is where it is today 
and it is going to be that way tomorrow and perhaps next year 
unless we force those changes.
    I am just going back and looking through some of the things 
that I wanted to make sure that I got on the table, and I 
wanted to go back to you, Ted, regarding these regulations, 
these proposed regs on refuges.
    It was about ten days or so ago now I sent a letter to the 
Office of Information Regulatory Affairs within OMB. We argued 
in that letter that Fish and Wildlife's management regs should 
be returned to the agency for more analysis because the true 
economic impact of these regulations had not been sufficiently 
captured.
    As you know, because you are very engaged in this, the 
letter that the delegation had sent initially to Director Ashe 
was one where they made clear in their regulation that this is 
not going to have any impact on subsistence. These regulations 
would not have impact on subsistence.
    So we sent a letter back to OMB saying, you have got to 
relook at this because you have not looked at the economic 
impact. These regulations, we believe, will impact subsistence 
which is, of course, economically critical to so many.
    I would like you to just comment on whether or not you 
would concur that even though these regulations specifically 
say this is not going to impact subsistence, when you manage in 
an area or you regulate in one area, again, your wildlife that 
is within the area does not pay any attention to whether or not 
you are a Federal manager or state manager. It does not know 
where the boundaries are and does not really care what 
regulations we put in place. Can you just comment on the 
subsistence aspect of what we raised in our letter?
    Mr. Spraker. Yes, Senator, I'll attempt that one.
    There's no question that these new rules are going to 
impact subsistence. And we've talked a lot, several testifiers 
have talked a lot, about proper management. There sometimes is 
a need for reducing numbers of predators and so forth, the 
impact of predation. What happened? And I already briefly 
mentioned the Western Arctic Caribou.
    The Chairman. Right.
    Mr. Spraker. I think that's going to be the real, the proof 
is going to be in the pudding there because if we're not 
allowed we--as in Alaskan hunters, Department of Fish and Game 
and the Federal agencies--if we're not all allowed to address 
that in some proper manner to increase that herd of caribou 
there's no place in the state where subsistence, I think, is so 
vital for food security other than the Western Arctic Caribou.
    Local residents kill between 12,000 and 14,000 caribou 
annually. They don't kill them for the antlers. They don't 
mount the heads. They take the meat. That's going to be the 
real question, I think, in analysis when that plays out in the 
Western Arctic it's what happens here.
    You know, we're all looking forward to a count this summer. 
We're hoping that count comes in higher. Some of the basic 
parameters of game management are looking a little more 
positive for it. But if they go the other direction and if 
falls below 200,000 animals, subsistence is going to be 
impacted because I don't think we're going to be able to do the 
proper sort of management that's necessary, and that is 
predator control. I don't want to mince words about it.
    The way to address that is not habitat enhancement and we 
can't do anything with the climate or anything addressed there, 
but the one thing that we can do is we can reduce the impact 
from predators. I'm talking about wolves.
    The other thing that's involved there, and this is going to 
be really interesting, is that I made a comment about trappers 
who are saddled with a bunch of regulations here. Trappers have 
never been able to reduce predators to any sort of a level that 
will benefit a prey population. There's only been one case in 
Alaska in the 40-mile herd where they came fairly close and it 
was short lived.
    If you want to do effective predator control it has to be 
over a long period of time. You want to keep a base number of 
predators in there. You don't want to take them all out, but 
you have to reduce them over a long period of time to release 
the prey population and let them build.
    Again, those questions are going to be asked on this 
Western Arctic, and with all these new rules in place it's 
really going to be interesting to see which side of the line 
the Federal guys fall on.
    The Chairman. Ricky?
    Mr. Gease. On this specific issue I would just point to the 
record of the Federal Subsistence Board. Every Regional 
Advisory Council wrote in opposition to the National Park 
Service and U.S. Fish and Wildlife regulations. Those are rural 
residents, qualified rural resident users, for the most part, 
and the overwhelming testimony, I think, in feeling the people 
was yes, we may be qualified rural subsistence users, but we 
also make use of the non-subsistence Federal lands and also the 
state lands for hunting and fishing.
    It's telling that the core regulatory body within the 
Federal system, made up of primarily subsistence users, said 
no, we don't like these regulations. That's a very telling 
testimony, in my opinion.
    The Chairman. We are going to wrap up the panel here. I am 
going to give you one last opportunity to put on the record 
what you think we may have overlooked or something that you 
need to amplify, recognizing that what we were trying to do 
today was to effectively review the management of our national 
forests, of our public lands and what we can be doing together, 
cooperatively, to make them healthier, to make them more 
productive, for the people who live here as well as attractive 
for the people who we want to bring up here, who will help us 
with our local economy, whether it is enhancing our tourism 
opportunities, whether it is guiding, whether it is for 
recreation for hunting, for fishing.
    Chris, is there anything that we need to amplify or 
supplement for the record, certainly from the perspective of 
making sure that our forests are healthy? You have brought that 
perspective to the panel today, and I appreciate that. But if 
you would like to add anything further to that and specifically 
we will look forward to further analysis of this draft proposal 
that we have put out there. As you know, we are still working 
to build that out and to work on a final draft, final 
legislation.
    Mr. Maisch. Yeah, thanks for the opportunity.
    I think that it's a great start and there's a lot of good 
things in it, and I think we can help them make improvements. 
So, we'd be looking forward to commenting further.
    I think what I wanted to comment on I think we've covered 
fairly well that we understand we need to try to get ahead of 
the problem and there's many facets of them.
    And one of those is having these Federal landscapes support 
the communities and the residents that live in this landscape 
and around the landscape. It's very important that we have 
economic activity to allow us to prosper, and that's been 
something we've been working in particular on in the Tongass 
very earnestly for quite a number of years. The Tongass 
Advisory Committee and that of the Tongass Transition 
Collaborative are really holding the Federal agencies feet to 
the fire that when they come up with a planning direction, 
which they do pretty regularly on all these landscapes, that 
they actually follow through, that they actually implement what 
they say they're going to do and that we hold them accountable 
for what they say they're going to do.
    That's been a real focus on the Tongass, in particular, 
about the timber situation and how dependent the economies in 
South East Alaska are on that particular resource. It's been a 
real frustration for many but that landscape has not been able 
to produce the renewable resource that it has in sufficient 
quantities to maintain a viable timber industry, so we've been 
working very hard out there trying to work with the Federal 
agencies to come up with new ways to engage them, to get them 
involved with the communities, to really get them to feel that 
they have an important role to support these towns and 
citizens.
    And it's a real mind shift, I think, for some of the 
agencies to start thinking that way.
    The Chairman. Right.
    Mr. Maisch. And it's not an easy shift. We call it a 
cultural change within the agencies. The recommendations the 
Tongass Advisory Committee made, only about a third of those 
will actually go into the management plan that they're 
amending. Two-thirds of the recommendations we made have to be 
things that we do to this transition process to ensure that 
they're held accountable for what they say they're going to do.
    So anyways, new ways of collaboration. Collaboration is not 
an easy thing to do. It's been very difficult, and it takes a 
lot of time and energy. But if people commit to it, I think it 
can result in, you know, better days for all of us.
    So, that's what I----
    The Chairman. I appreciate that, and I appreciate what you 
have said about the Tongass and recognizing that it is 
different in the Tongass now than when I was a kid growing up 
and living in that region. But when we talk about a transition 
to a second growth and what that means, we need to understand 
what it is that we have so that we know that a transition is 
workable within the time that Forest Service believes it is.
    We have been pretty adamant that we understand our 
inventory first, and I think Mayor, that is some of what you 
suggested in your comments here was that to be better prepared 
let's know where our trouble spots are. Let's make sure that we 
have got the aerial mapping. Let's make sure that we know what 
we might want to do. It is, kind of, an inventory of our assets 
here. So are there other things that we need to know?
    Mr. Navarre. You know, I think a collaborative effort in 
which we just continue to communicate because there are 
conflicts between the different managers at the State and 
Federal levels and as you know, the different agencies.
    So good communication and you know, maybe even, as I 
mentioned, a facilitated process where you can identify what 
the impediments are to management instead of identifying what 
reasons, what things can't be done, identify what needs to 
happen and then figure out how you accomplish that in a way 
that allows for it to be done in a little bit more efficient 
manner so that you can make sure that we protect long-term both 
access to the economies that go with our natural resources that 
we have up in Alaska and on the Kenai Peninsula.
    And I want to thank you again, Senator, for bringing the 
Committee to the Kenai Peninsula and to Alaska for these 
hearings.
    The Chairman. Thank you.
    Cindy?
    Ms. Clock. Well, Okay.
    So Chris mentioned that really scary word, change. We may 
all need to go to some workshops to learn how to deal with 
change, but I definitely believe in a proactive approach to the 
world instead of reactive, so that would be awesome.
    The other thing that I just brought to mind when the Mayor 
was speaking was strategic doing. We ask three questions. The 
first one is if we could do anything at all, you know, what 
would we do? Then the second one is well, okay, but now let's 
narrow it down and what can we do? Then the final, nitty gritty 
question was what will we do? So I think once we get to that 
question some awesome things will happen.
    Thank you, again.
    The Chairman. Thank you, Cindy.
    Ms. Clock. Thank you for facilitating the conversation, and 
I appreciate being part of it.
    The Chairman. Thank you.
    Ricky?
    Mr. Gease. A couple things.
    One is, I'll hammer the point, the first point I made about 
Cooper Landing bypass and the thing about wilderness.
    I mean, you've had your own share of battles with the 
concept of wilderness in Alaska. But I really think this is an 
amazing example where you have an Alaska Native Regional 
Corporation and you have an Alaska Native Tribe who both oppose 
going through their culturally sensitive lands. They're both, 
kind of, timid on going up against wilderness designation even 
though the lands that the Alaska Regional Corporation holds on 
the Kiwi River, are our important brown bear habitat, important 
king salmon habitat. It would be a great trade to put into the 
Kenai National Wildlife Refuge.
    We're timid, and we won't trade it for 80 acres on a rocky 
mountain hillside so we can put a highway through. That makes 
the most sense.
    That that to me just, it's mind boggling to me why we're 
going to put another bridge across the Kenai River, where it 
will end up behind the Princess Lodge. We're going to come down 
on the 45 mile an hour stretch. Then they're going to go 
through the S turns, and you know, ramble along the Kenai for 
five miles when it could, just as easily, been bypassed and 
have the whole highway go outside the Kenai River and the 
ability to have an accident.
    Again, that's another one where it's not a question of 
when. We've already had trucks come in to the Kenai River. 
Anybody who goes driving between Kenai and Anchorage at 
nighttime understands the amount of truck traffic, of double 
trailer, truck traffic. It keeps our stores alive. It keeps the 
economy moving and stuff. But such a basic access and 
infrastructure need and we're being cow towed by our own 
limitations of the concept of wilderness. And it's just amazing 
to me.
    The second thing I would say is that in terms of fishery's 
research there's no greater balkanization, I think, of research 
fisheries. We have fresh water. We have salt water. We have 
U.S. Fish and Wildlife. We have nymphs. We have ADF and G. We 
have universities. We have industry. We have NGO's. And it 
would be very, very helpful to have some sort of coordinated 
research in pink salmon because they go into everywhere 
basically, State waters, Federal waters, fresh water, salt 
water, and somehow get all the research embedded into a 
technological format that you can start understanding the 
limitations on where we have these bottleneck productivity for 
king salmon and other species in the North Pacific.
    It's a big area where we have changing climates. We have 
changing productivity. It's cyclical. Sometimes we have booms 
and sometimes we have busts, and to get a better understanding 
of that I went to Stanford prior to the biotech revolution and 
was, you know, we were still using the lots of crit DNA models 
and getting graduate studies and----
    When you come back 20 years later it's like, well this is 
the genome of the human, and this is the genome of a brown 
bear, and this is the genome of the sockeye salmon, and here's 
our genetic testing labs.
    For whatever reason in terms of fishery's research we have 
not utilized technology and information to the extent that we 
can visualize what's happening in the ocean to the extent that 
we can.
    It comes back to information technology whether it's 
mapping, seeing these different areas. Where we can do here, 
where we can go there, where we can be strategic? That's visual 
information.
    And in terms of visual information for fisheries, we're a 
long way. And I hope we come back 20, 30 years from now, we can 
visually go into areas and see hey, this is what's happening 
out in the Pacific. We have visuals.
    We think we can have a virtual reality where we're swimming 
along and oh, this is the bottleneck because there's no--
there's none of this feeding group at this ecological level. I 
hope we build in the systems that can do that, take advantage 
of these new technologies that are coming out.
    We would never have the advances in medicine if biology 
never embraced technology. I think in our fishery's research we 
need to make that same jump and really get an advance in using 
that so that we can see systems that we can't see just by 
themselves.
    The Chairman. Okay, good suggestions.
    Ted?
    Mr. Spraker. Well, the last main comment that I want to 
make is I would hope that your Committee will take a very 
serious look at this new ideology. I think it's clearly a 
preservationist approach to wildlife management. And in terms 
of natural diversity and wildlife with integrity I think it's 
going to just stop all management on wildlife refuges.
    You know, a refuge is not a national park. You know, it's 
here to use and it's here. And I think if we, we were talking 
earlier about the revenue. If we could bring some of the 3,500 
plus hunters that used to call the Kenai their area for 
hunting, bring them back here, it would be a huge increase in 
revenue.
    In the early 70's, 80's, we used to have check stations on 
the Swans River Road because there was so many hunters. Today 
you go to those same roads on the opening day of moose season 
and you can't even tell that the moose season is open. You may 
see one guy with a camo shirt on but that's probably the same 
shirt he had on the day before. [Laughter.] So, I mean, hunting 
on the Kenai for moose is just a thing of the past. I'm not 
going speak for the refuge, but I know these people. I've 
worked with them. I know them well. And for the author that put 
together a paper in 1991 saying that if we don't do something 
about our moose population it's going to decline, I think 
that's the same refuge manager that would like to lead the 
recovery of the moose population on the Kenai.
    And it's simple, the management of a wildlife resource is 
very simple. It's getting through all the bureaucracy and the 
permits and the authority to do it. That's the difficult part. 
Managing moose is not difficult. Managing habitat is not 
difficult. Just having the funding and the authority to do it 
is the tough part.
    We have some of the best scientists in the world living in 
Alaska, working for State and Federal agencies that would like 
to do their job, and I don't think they have a chance to do it. 
And that's what I would hope that I could just leave you with 
that thought.
    The Chairman. Okay.
    Mr. Spraker. Letting managers do their job will produce 
wildlife for viewing, for people to hunt, for food security, 
for predators to eat. We could produce moose. While people come 
to the Kenai to see moose, they rarely ever see moose.
    Thirty years ago there were a lot of moose. And there's 
also a, kind of, a social carrying capacity. You don't want a 
lot of moose produced in town. So that's where the smart 
researcher, the smart manager does habitat work away from towns 
to create areas where moose will live and be away from towns. 
It produces road kills, problems with the moose in town, so 
same thing with bears.
    These things can be done. We just need the authority and 
managers need to be allowed to do their job.
    I want to thank you as well for being here today and 
bringing the Committee to the Kenai. This is a real privilege 
for us. We really appreciate you being here today. Thank you.
    The Chairman. Well, thank you.
    I thank each of you for giving up your morning and helping 
us fill out the record here as we look to not only the impact 
of fire and why it is so important to do what we can ahead of 
time to make sure that the losses that are associated with 
wildland fire are limited. Limited for a host of different 
reasons, from an economic perspective, from safety perspective 
and just from a management perspective. But also the 
opportunity to talk about how we really can do a better job 
working with the Federal managers of our public lands whether 
it is Forest Service, whether it is Park Service, whether it is 
BLM, all the various Federal agency, Fish and Wildlife. I think 
we recognize here in this state it is not easy when you have 
multiple agencies that you are dealing with, not only at the 
Federal level, but at the state level. I know that the 
frustration level gets very, very high. I know because I hear 
about it as I am sure that your local leaders and your state 
representatives do as well.
    As we try to work through some of the challenges that we 
face and some of the impediments to a stronger economy and a 
healthier region and healthier communities, this is what we are 
trying to do by peeling back the onion a little bit.
    So thank you to each of you. I want to thank those of you 
who have also spent your morning with us. We appreciate that, 
and thank you to the staff that have helped make it happen this 
morning.
    The record will be held open for two weeks from today. If 
you have anything that you would like to provide to the 
Committee in writing, you can submit it by going to the Energy 
Committee website.
    I am looking for affirmation and I'm told no. Annie Hoefler 
will be back there making sure that if you need more 
information about where to submit and how to submit your 
testimony make sure that you see her or you can also go to our 
website.
    But just so you are aware, this is more than just a nice 
opportunity to have conversation with these folks. We actually 
do take the input that we receive and we use this, whether it 
is to flesh out more of the details on this draft legislation 
that we laid down last week or whether it is how we move 
forward in advancing either comments to regulations or if we 
need to do measures by utilizing other legislative tools, say 
for instance, through the appropriations process. We gain good 
information here.
    So do not think that this is just an exercise where we come 
to town, listen for a little bit and then leave and do not do 
anything with it. We definitely do take all of this into 
account as we are formulating our legislation, our comments and 
our input back in Washington, DC, and yours will be considered 
and evaluated too.
    Thank you for being here. Thank you all.
    With that the Committee stands adjourned.
    [Whereupon, at 12:28 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   [all]
</pre></body></html>
